<html>
<title> - THE EMV DEADLINE AND WHAT IT MEANS FOR SMALL BUSINESSES: PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                THE EMV DEADLINE AND WHAT IT MEANS FOR 
                      SMALL BUSINESSES: PART II

=======================================================================

                                HEARING

                              BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 21, 2015

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                               

            Small Business Committee Document Number 114-026
              Available via the GPO Website: www.fdsys.gov
              
              
                               ___________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
97-228                         WASHINGTON : 2015                    
                   
_________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  
     
                   
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                        TOM RICE, South Carolina
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                          MIKE BOST, Illinois
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
            Stephen Denis, Deputy Staff Director for Policy
            Jan Oliver, Deputy Staff Director for Operation
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Ms. Jami Wade, Owner, Capitol City CORK and Provisions & Capitol 
  City Cinema, Jefferson City, MO................................     4
Mr. Keith Lipert, Owner, Keith Lipert Gallery, Washington, DC, 
  testifying on behalf of the National Retail Federation.........     6
Mr. Jared Scheeler, Managing Director, The Hub Convenience 
  Stores, Inc., Dickinson, ND, testifying on behalf of National 
  Association of Convenience Stores..............................     8
Art Potash, CEO, Potash Markets, Chicago, IL, testifying on 
  behalf of the Food Marketing Institute.........................     9
Ed Mierzwinski, Consumer Program Director and Senior Fellow, U.S. 
  Public Interest Research Group, Washington, DC.................    10

                                APPENDIX

Prepared Statements:
    Ms. Jami Wade, Owner, Capitol City CORK and Provisions & 
      Capitol City Cinema, Jefferson City, MO....................    25
    Mr. Keith Lipert, Owner, Keith Lipert Gallery, Washington, 
      DC, testifying on behalf of the National Retail Federation.    28
    Mr. Jared Scheeler, Managing Director, The Hub Convenience 
      Stores, Inc., Dickinson, ND, testifying on behalf of 
      National Association of Convenience Stores.................    33
    Art Potash, CEO, Potash Markets, Chicago, IL, testifying on 
      behalf of the Food Marketing Institute.....................    40
    Ed Mierzwinski, Consumer Program Director and Senior Fellow, 
      U.S. Public Interest Research Group, Washington, DC........    46
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    American Bankers Association (ABA), Consumer Bankers 
      Association (CBA), Credit Union National Association 
      (CUNA), Financial Services Roundtable, Independent 
      Community Bankers of America (ICBA), and National 
      Association of Federal Credit Unions (NAFCU)...............    56
    Food Marketing Institute (FMI)...............................    59
    Joint Trades Letter to HSBC..................................    68
    National Grocers Association (NGA)...........................    71
    TechNet......................................................    77

 
    THE EMV DEADLINE AND WHAT IT MEANS FOR SMALL BUSINESSES: PART II

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2015

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Luetkemeyer, Hanna, Rice, 
Brat, Knight, Curbelo, Hardy, Velazquez, Hahn, Lawrence, Adams, 
and Moulton.
    Chairman CHABOT. Good morning. I call the Committee meeting 
to order.
    At the Small Business Committee, we make it our job to 
understand what is helping and hurting the small businesses 
that employ half of the American workforce. Today, we are 
interested in hearing more about the transition to EMV chip 
card technology because it impacts every person who holds a 
major credit card and the more than 20 million small businesses 
that accept them. So how is this transition going?
    At this time last year, one credit card provider had 55,000 
merchants who could accept chip cards. Now that number has 
grown to nearly 400,000 merchants, so we are seeing some 
progress. But that is still a small percentage of the small 
businesses in this country. One of the justifications for this 
shift in technology is avid security. The debate over how we 
secure the billions of dollars in electronic transactions that 
American's complete every day is not static. It requires that 
we continue to innovate and continue to think strategically 
about how we protect ourselves.
    New technologies hold great promise, but there are no 
silver bullets, and that is why this Committee supports 
innovation in the electronic payments space, and we hope that 
small businesses will look at new securities as opportunities 
for better customer service. We are in the midst of a private 
sector transition, not something mandated by Congress or by the 
Administration, but something initiated by the free market. Any 
change is hard, but when it impacts millions of people, 
controversy is inevitable. That is probably the reason the 
Small Business Committee's hearings on the EMV transition are 
the first of their kind in this Congress and why we have had 
tremendous pushback from all sides. To me, this only confirms 
that this is the right issue, the right time, and the right 
venue for a fair, open conversation.
    Let me be very clear here. We are here to examine an issue 
that impacts every American family with a credit card. We are 
not here to take sides. To better understand this transition, 
we need to speak to all those involved--bankers and merchants--
and that is the conversation that we continue today. Two weeks 
ago we heard from the banks. Today, we are hearing from the 
merchants.
    So with that I want to thank all the witnesses that have 
gathered here today. I would ask unanimous consent to allow one 
additional witness to this morning's panel. And without 
objection, so ordered.
    And I would now like to yield to our ranking member this 
morning, Nydia Velazquez, for her opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    In the last 15 years, new technologies have revolutionized 
the payment system, allowing customers to easily purchase goods 
and services and small businesses to process transactions in a 
quick manner. During the same period, card payments rose from 
23 percent to nearly 50 percent, while payment by cash and 
checks dropped from 70 percent to 35 percent. This has had a 
significant impact on how small businesses process payments.
    This trend, however, has not come without challenges. As we 
discussed during the first hearing on this issue two weeks ago, 
payment fraud has become a serious problem, not just for banks 
but also for companies of all sizes, including small 
businesses. Last year, it was reported that more than 60 
percent of companies were the target of payment fraud. 
Globally, the United States has 25 percent of the world's 
credit card use, but 50 percent of the world's credit card 
fraud, costing more than $5 billion. Clearly, something needs 
to be done to address this issue.
    EMV cards are one answer. They offer a significantly higher 
level of data security than stripe cards. Data on the chip is 
secured using both hardware and software security measures, so 
even if the card data is compromised, the chip itself will 
still be difficult to counterfeit. We know that EMV is a 
technology that has shown great promise for reducing fraud. 
Much of the rest of the world--Europe, Canada, Latin America, 
and the Asian-Pacific region are already in the process of 
transitioning to EMV-enabled cards. The U.S. is the last major 
country to implement what is now a de facto global standard
    We are concerned, however, that small businesses remain in 
the dark on this transition. Most will need to upgrade their 
payment systems as only about 20 percent of payment terminals 
are currently equipped to accept chip cards, and most of these 
are at larger retailers. We have also heard much about the high 
cost of these new terminals, but I was glad to learn at the 
prior hearing that Square is able to provide an EMV device for 
as little as $49. This should bring EMV compliance within the 
reach of most retailers.
    Perhaps the biggest concern is the liability shift 
resulting from not installing the new EMV readers. Many small 
businesses are unaware of this new outcome, and that is the 
problem. Educational efforts must continue, and again, I am 
hopeful that more low-cost readers become readily available. 
However, it is also important to note that EMV is not a 
mandate, and businesses are not required to install the readers 
if they determine that their risk of fraud is law and the 
transition cost is too high for them to bear.
    Two weeks ago we heard from a panel of financial 
institutions about the rationale for this new technology and 
how it has the potential to reduce fraud. Today, we will hear 
about the experiences of those on the frontlines--small 
businesses--that will be using this new equipment in their 
stores.
    I have to say that this topic has brought back memories of 
the interchange fee debate which this committee followed very 
closely. However, while both involved payment issues, my view 
is that they are very, very different. This current issue 
concerns the adoption of globally accepted fraud-prevention 
technology and the potential burden on small businesses. The 
interchange debate surrounded the transparency or lack thereof 
regarding the fees charged by payment network providers to 
merchants. I recognize the tension between these networks and 
those that use them, but I hope that we can focus solely on the 
EMV implementation issue at hand today.
    With that in mind, hearings such as this present the 
committee with an opportunity to become a resource and sounding 
board for advances in finTech and payments innovation in 
general. The Small Business Committee is uniquely positioned at 
the intersection of finance and small business--the frontier 
really--for the adoption of these new technologies.
    I thank the chairman for his leadership on this issue, and 
I look forward to hearing the testimony of today's witnesses. 
Thank you so much for taking time to be here. Welcome.
    Chairman CHABOT. I thank the ranking member. And if 
Committee members have opening statements, we would ask that 
they submit them for the record.
    And I will take just a moment to explain our lighting 
system and our rules here. You get five minutes to testify and 
we will have five minutes to ask questions. We will alternate 
back and forth, Republicans and Democrats. The green light will 
be on for four minutes, the yellow light will come on to let 
you know that you have one minute to wrap up, and then the red 
light means stop. And we would ask that you try to stay within 
that, if at all possible. We will give you a little leeway but 
not a whole lot.
    So, and I would now like to yield to the vice chairman of 
the Committee, Mr. Luetkemeyer, from Missouri, to introduce our 
first witness this morning.
    Mr. LUETKEMEYER. Thank you, Mr. Chairman. I would like to 
introduce a constituent of mine, Jami Wade, who is a small 
business owner from Jefferson City, Missouri. Five years ago 
she decided to follow the American dream and opened her own 
small business, Capitol City CORK and Provisions, a wine shop 
and restaurant located in historic downtown Jefferson City. In 
addition, Jami is executive director of Capitol City Cinema, a 
single screen, nonprofit community-based, member-supported 
movie theater. As owner and operator of two small businesses, 
she knows firsthand the day-to-day challenges faced by our 
nation's small businesses.
    I want to thank Ms. Wade for taking time out of her busy 
schedule to be here for us today to testify on her experience 
with upgrading her payment card terminals to EMV technology and 
what this transition means as far as business. Thank you, Jami.
    Ms. WADE. Thank you, Representative Luetkemeyer.
    Chairman CHABOT. We will go ahead and introduce the rest of 
the members before we start with your testimony.
    Ms. WADE. Okay.
    Chairman CHABOT. Our next witness will be Keith Lipert. Mr. 
Lipert owns the Keith Lipert Gallery in Washington, DC, a 
retail establishment offering fine art and jewelry. Mr. Lipert 
serves on the board of directors for the National Retail 
Federation, and we welcome you here this morning.
    Our next witness will be Jared Scheeler, who is managing 
director at The Hub Convenience Stores in Dickinson, North 
Dakota. Mr. Scheeler is a veteran of the convenience store 
industry and serves on the board of directors for the National 
Association of Convenience Stores, and we welcome you here as 
well.
    Our fourth witness this morning is Art Potash. He is the 
CEO of Chicago, Illinois', Potash Markets, a small chain of 
neighborhood groceries in Chicago's North area. Mr. Potash is 
testifying on behalf of the Food Marketing Institute. We 
welcome you here this morning.
    I would now like to yield to Ms. Velazquez for introduction 
of our next witness.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. It is my pleasure 
to introduce our witness, Mr. Ed Mierzwinski, the Consumer 
Program Director and Senior Fellow of the U.S. Public Interest 
Group. With over 25 years of experience, he has testified 
before Congress, state legislatures, and federal agencies on a 
wide range of consumer issues. He has published articles in the 
American Prospect, the Journal of Consumer Affairs, Suffolk 
University Law Review, and authored the consumer reference 
guide ``Watchdogs and Whistleblowers''. Mr. Mierzwinski is also 
chair of the Americans for Financial Reform CFPB Taskforce. He 
earned both bachelor's and master's degrees from the University 
of Connecticut. Thank you for being here.
    Chairman CHABOT. Thank you very much.
    And Ms. Wade, you are recognized for five minutes.

     STATEMENTS OF JAMI WADE, OWNER, CAPITOL CITY CORK AND 
PROVISIONS AND CAPITOL CITY CINEMA; KEITH LIPERT, OWNER, KEITH 
  LIPERT GALLERY; JARED SCHEELER, MANAGING DIRECTOR, THE HUB 
 CONVENIENCE STORES, INC.; ART POTASH, CEO, POTASH MARKETS; ED 
MIERZWINSKI, CONSUMER PROGRAM DIRECTOR AND SENIOR FELLOW, U.S. 
                 PUBLIC INTEREST RESEARCH GROUP

                     STATEMENT OF JAMI WADE

    Ms. WADE. Good morning, Mr. Chairman, Ranking Member 
Velazquez, and other Committee members. My name is Jami Wade, 
and I am the owner of Capitol City CORK and Provisions, a wine 
shop and restaurant in historic downtown Jefferson City, 
Missouri, just a few blocks away from our Missouri State 
Capitol. I am also the executive director of the Capitol City 
Cinema.
    I would like to thank the Committee for the opportunity to 
speak today about the matter of small businesses upgrading 
their payment card terminals so that those terminals can now 
read the new chip-enabled payment cards.
    I began my adult life as a high school teacher in Columbia, 
Missouri. Five years ago, I moved from Columbia to my hometown 
of Jefferson City and opened Capitol City CORK and Provisions. 
I have five employees at that restaurant. We can only seat 32 
patrons at our tables, so we truly are a small business. Next 
door to Capitol City CORK is the Capitol City Cinema, a single 
screen movie theater. It is a nonprofit, community-based, 
member-supported movie theater.
    As the owner of one small business and the founder of 
another, I have to rely on myself to exercise sound business 
judgment. Any misstep could have serious consequences for the 
businesses I run and the people I employ. The manner in which 
we get paid is essential to our ability to generate cash flow, 
pay bills, and stay in business. Acceptance of payment cards is 
the lifeblood of our operations. First of all, approximately 90 
percent of the restaurant sales are made through debit or 
credit card transactions. When a customer pays with a card, I 
always know I am going to get paid, get paid quickly, and get 
paid without hassle. My restaurant has never even had to deal 
with a disputed card transaction. Also, it may just be the 
result of basic human nature, but it seems that customers are 
willing to spend a little more, maybe an extra glass of wine or 
dessert, when they are paying with cards instead of cash. For a 
small business, that is valuable.
    On the other hand, we do not accept checks, other than for 
special events, and even then, we only accept them from well-
established clients. We cannot run the risk that checks will 
bounce and we will not get paid, leaving us to cover the cost 
out of pocket.
    At Capitol City Cinema, many of our customers still 
purchase their movie tickets with cash, but we do accept cards 
and we often see customers making purchases of higher priced 
items with cards. At both Capitol City CORK and Capitol City 
Cinema, we have been fortunate never to have been the victim of 
credit card fraud payment. I know firsthand, however, that the 
threat is real. A few years ago, my husband was the victim of a 
breach at a local grocery store in Jefferson City. His card 
information was stolen, and the hackers ran up $7,000 in 
charges. I am glad to say that we were not held responsible for 
paying for those transactions because those fraudulent charges 
would have done serious damage to our personal finances.
    Both of my business rely on card payments, particularly my 
restaurant, and I will tell you that it would be a very big 
deal for us to absorb the costs associated with even one major 
incident of fraud. The potential liability would be seriously 
detrimental to our business, especially at Capitol City CORK. 
This is why I have made the business decision to upgrade to 
terminals that can read chip-enabled payment cards at Capitol 
City CORK and Capitol City Cinema.
    A bit of background. I am lucky to have a good relationship 
with my card processor, another small business located a block 
away from the restaurant and the movie theater. Because I 
talked to my processor on a regular basis, I was able to learn 
about the new chip-enabled terminals that were becoming 
available, and my processor explained to me about the liability 
shift well before it went into effect October 1st. The total 
cost for a new chip-enabled terminal at Capitol City CORK is 
about $300, and yes, this is an out-of-the-ordinary expense for 
the restaurant, but I do not consider it to be a financial 
burden given the peace of mind that a new terminal will 
provide. I look at it as paying a small premium for an 
insurance policy to protect the restaurant against a 
potentially significant downside. I cannot imagine leaving my 
business vulnerable to external threats when there are 
reasonable steps that I can take to protect it.
    I also learned that a chip-enabled card reader is available 
for the Capitol City Cinema for $10. I have voiced my support 
for making the upgrade and the decision whether to make the 
purchase is currently pending before the cinema's board of 
directors. I do believe that it is up to each business owner to 
make the proper decision for his or her own business. Some 
small business owners will no doubt choose not to upgrade their 
terminals, whatever the reasons. In my opinion, they are 
putting their businesses on the line by leaving them 
susceptible to fraud in card transactions.
    As I started out saying, as a small business owner, I have 
had to rely on myself and my own sound judgment in making my 
vision a reality. I will continue to do so as I look ahead and 
upgrading to chip-enabled technology is the right decision to 
ensure my business is around long into the future for my 
family, my employees, and my customers.
    I appreciate the opportunity to share my experience with 
the Committee today, and I welcome any questions that you may 
have for me.
    Chairman CHABOT. Thank you very much.
    Mr. Lipert, you are recognized for five minutes.

                   STATEMENT OF KEITH LIPERT

    Mr. LIPERT. Mr. Chairman and members of the Committee, 
thank you for the opportunity to testify today. My name is 
Keith Lipert. I am a shopkeeper with one full-time and two 
part-time employees. My gift store, the Keith Lipert Gallery, 
can be found here in Washington, DC, and online at 
www.keithlipert.com.
    I love being a retailer and I love serving my customers. 
When I opened my doors in 1994, I intended to be successful by 
selecting beautiful items to sell and by taking care of my 
customers. Back then, unique merchandise and quality customer 
service were enough to keep customers returning to my store. 
Manual sales slips were enough to conduct cash and credit 
transactions. Today, the small retail business model is being 
disrupted with challenges such as online competition, evolving 
technologies, and especially the struggle to keep up with the 
ever-changing compliance standards and ever-higher credit card 
swipe fees.
    EMV was created by the largest card companies and is 
imposed on retailers. This October marked the deadline when 
card networks effectively shifted the bank's liability for 
fraud onto any retailer who could not accept a chip card. It is 
an arbitrary date and the card brands dictated it without 
seriously considering its effect on millions of small 
businesses. For businesses like mine, the EMV transition is 
overwhelming and costly. I do almost everything myself, and I 
must rely on outside vendors when it comes to IT needs. 
Selecting the right point-of-sale, EMV-compatible system can be 
very confusing for small merchants. There are countless 
options, all with their own fine print regarding new additional 
fees and rules. Card fees are already amongst my highest budget 
items. How many more card costs can there be?
    Not only is the process extremely complex, but the costs 
can be very high. Despite claims to the contrary, the 
additional cost of fully incorporating EMV compliance into my 
POS terminal will exceed $1,000 to $2,000 once training, 
integration, and other expenses are included. There are big 
delays in getting the EMV hardware, installing the software, 
and for many retailers, receiving the certification. I cannot 
obtain equipment today because, as my rep explained, it is on 
backorder. With tens of millions of POS terminals in our 
country, I cannot imagine that I am the only one in this 
position.
    As you might expect from a system where practically all the 
important decisions are made unilaterally by Visa and 
MasterCard, the migration to EMV serves the goals of their big 
banks and largely leave small retailers to fend for themselves. 
Merchants are particularly disappointed that the banks expect 
retailers and other businesses to adopt these costly upgrades, 
but the banks will not adopt secure chip and PIN technology. 
Chips help protect banks from the kinds of fraud they are 
likely to be responsible for, but in situations where retailers 
bear the largest share of the risk, the new chip and signature 
cards do virtually nothing. In those situations, notably lost, 
stolen, and online fraud, PINs are the single most certain way 
of stopping fraud.
    When I opened my store, cash and checks were very common. 
These forms of money cost virtually nothing. A $100 sale netted 
me $100 in revenue. The card networks have spent untold 
millions of dollars to convince consumers to use cards instead 
of cash. Today, when a customer spends that $100 using a card, 
I get less than $97. This might not sound like a big reduction 
to some, but over the course of a year, for my one store, it 
amounts to tens of thousands of dollars, on par with the 
healthcare costs I provide. From my perspective, the whole 
approach to EMV is costly, incomplete, and further enhances the 
monopoly power of the card interest industry at my expense. 
Small retailers are entirely at the mercy and whims of the big 
banks here. We have no say, and we have no way to use the 
marketplace to make our objections heard and our concerns 
valued. Unless the government or someone can help achieve a 
level playing field, we will continue to see the slow 
destruction of the small local merchants that provide the glue 
for our communities.
    We need two things: secure payment technology and payments 
that are transparent and competitive. Instead, we are getting 
opaque, ever-more costly half measures from our card industry 
partners.
    Thank you for your interest in this issue, and I look 
forward to your questions.
    Chairman CHABOT. Thank you very much.
    Mr. Scheeler, you are recognized for five minutes.

                  STATEMENT OF JARED SCHEELER

    Mr. SCHEELER. Chairman Chabot, Ranking Member Velazquez, 
and members of the Committee, thank you for giving me the 
opportunity to testify this morning on the EMV transition. My 
name is Jared Scheeler and I am managing director of the Hub 
Convenience Stores and a board member of the National 
Association of Convenience Stores. The Hub has four retail 
outlets in North Dakota where we employ on average 12 employees 
per store.
    The EMV transition has been very costly in both time and 
money for my small business. We do not have the technical 
support a large company often has to facilitate such a massive 
undertaking. It has cost more than $134,000, approximately 
$44,500 per store to install EMV equipment at just three of our 
four stores. At our Dickinson, North Dakota store alone, the 
upgrade is costing us more than $100,000. We have installed six 
brand new fuel dispensers at $17,000 a piece, and installed an 
instore point-of-sale card reader for $2,000. Despite these 
large investments, we cannot yet receive EMV transactions in 
part because Exxon Mobil has not yet made their card processing 
network EMV compatible.
    At our unbranded New England in Mott, North Dakota stores, 
we had older fuel dispensers which would have cost $9,000 per 
dispenser to upgrade. This is a common problem for smaller and 
more rural locations, which often have older equipment that is 
more expensive to upgrade, even though the dispensers still 
work just fine. Rather than paying $9,000 to upgrade 20-year-
old dispensers, we elected to transfer four-year-old dispensers 
from another store and paid $4,000 to upgrade and transport 
each of those pumps. We have installed four dispensers at the 
New England store and are waiting to install two at the Mott 
store. We also had to invest in new instore PIN pads for both 
locations which cost $2,000 each.
    The costs I have just described are just for hardware. 
There are also software costs. Our Exxon Mobil branded stores 
will require a software update, which is part of an annual 
service package that cost $1,500 per store. Without the service 
package, the software upgrade costs $1,000 on its own. Once the 
upgrade is complete, the stores' cash registers and credit 
network will be unavailable for six to eight hours during the 
software download. We operate our stores 24 hours per day, so 
this downtime, which will happen during the daytime when tech 
support is available, will create inconvenience and costs. In 
fact, we estimate that it will cost more than $10,000 in lost 
sales and labor at each store during that time.
    Even after the EMV transition is complete at my stores, 
there will be significant ongoing expenses. While I know the 
upgrade costs from my branded stores, the costs for my 
unbranded locations might be higher. I just do not know yet. 
According to industry estimates, ongoing maintenance and 
upgrade expenses are expected to be upward of $2,240 per store 
per year.
    Although we have installed almost all the necessary EMV 
hardware in our stores, none of our stores have gotten the 
requisite software upgrades. We need to get our terminals 
programmed and certified to be able to handle EMV transactions, 
but there is a shortage of programmers and the card networks do 
not have enough people to certify stores like mine. Finally, we 
will have to run a system pilot and engage in significant staff 
training before pushing our EMV system live.
    Due to these delays, despite beginning the transition 
process early, we will not be fully EMV operable until late 
summer of 2016. As a small business owner, I am also frustrated 
because I am investing heavily in technology that provides 
second-rate security. In spite of the proven security benefits 
of chip and PIN cards, the fact that a small business like mine 
could implement PIN easily, the card networks are mandating 
chip without PIN. Thus, despite the cost, EMV will not reduce 
fraud as much as it could and should. This is a serious problem 
because retailers already pay the price for the unsecure 
payment card system in the form of fraud chargebacks, high 
swipe fees, and more. PIN could reduce fraud costs, but the 
card companies are not providing it on credit cards as they 
have elsewhere and will not let me require PIN on debit cards.
    The transition to EMV has been a costly and burdensome 
undertaking, and unfortunately, it does not appear that the 
card companies took small business concerns into consideration 
when they came up with their EMV transition plans.
    Thank you for your time, and I look forward to answering 
any questions you might have.
    Chairman CHABOT. Thank you very much.
    Mr. Potash, you are recognized for five minutes.

                    STATEMENT OF ART POTASH

    Mr. POTASH. Good morning, Chairman Chabot, Ranking Member 
Velazquez, and members of the Committee. My name is Art Potash, 
and I am the CEO of Potash Markets in Chicago, Illinois. My 
family has owned and operated grocery stores in the Chicago 
area for 65 years. We currently employ 140 people. I appreciate 
the opportunity to speak to you about steps my company has 
taken to migrate to EMV and the challenges that we have faced.
    EMV is currently not an expressed mandate on merchants; 
instead, Visa, MasterCard, and other card brands announced that 
merchants who did not migrate to EMV by October 1, 2015, would 
have additional fraud costs placed upon them. This is in 
addition to fraud costs we already pay and interchange fees and 
card backs. After studying if the added costs of fraudulent 
cards would outweigh the cost of upgrading, we decided, like 
the majority of the grocery industry, to migrate our stores to 
EMV. In making this decision, providing the most robust 
security for our customers' data was our central concern.
    As you can imagine, upgrading to EMV is not as easy as 
buying a $49.99 Square reader. Our point-of-sale equipment is 
complex, providing for credit, debit, snap transactions, 
coupons, returns, along with a customer loyalty program, and 
ties into a network that requires substantial upgrades and both 
the front and back ends to be EMV and PCI compliant. 
Additionally, I rely on third-party vendors to actually perform 
these upgrades and interface with the other links in the chain. 
We rely on our merchant acquirer, in our case Worldpay, to make 
this happen for us.
    In May of 2015, we purchased and installed all new EMV 
point-of-sale devices in two of our three stores at a cost of 
$1,000 per lane. For the two stores, this meant $8,000 just to 
conduct EMV-compliant payment transactions. This is a large 
investment but we were willing to make it to protect our 
customers. While we now have EMV-compliant readers in our 
stores, we are not yet EMV compliant and are facing a holiday 
season exposed to greater fraud liability as we wait for our 
merchant acquirer to complete our transition.
    Currently, our acquirer estimates that they will be ready 
to upgrade our backend software by the end of November at best. 
Unlike the issuing banks who were enticed to issue chip cards 
with the promise of seeing their fraud costs reduced, merchants 
were pushed into EMV under the threat of seeing costs increase. 
This is particularly difficult for us to accept since we 
already pay the highest interchange fees in the developed 
world. Visa, MasterCard, and other card brands have defended 
charging American merchants $71 billion a year in interchange 
fees as a way of offsetting the cost of fraud. In a market-
based system, those fees should be reduced if fraud is reduced. 
Unfortunately, as we heard in the first hearing, Visa currently 
has no plans to pass any savings along to merchants. We hope 
that will change and that the Federal Reserve will see it to 
that it does.
    Retail food companies operate at razor-thin margins due to 
the competitive nature of the industry. Even when food 
retailers have realized savings due to technological 
advancements, the net profits for businesses in the industry 
has remained below 2 percent as savings have been passed along 
to the customer. If retailers realize savings from reduced 
fraud, those savings will also be passed along to the customer.
    I would be remiss if I failed to address the issue of PIN 
authentication. Every point of sale device in our stores is 
PIN-enabled. PIN is a proven safety measure that has been 
adopted globally but not in the United States. Historically, 
the card companies have ruled out EMV as chip and PIN 
technology, so not only are they verifying a card is 
legitimate; they are also confirming that the person presenting 
the card is authorized to use it.
    Unfortunately, here in the United States the card companies 
have rolled out an untested model they call Chip and Choice. It 
is up to the issuing banks to decide whether to issue PINs. 
Technology and industry are evolving and improvements are made 
every day, but here is what we know: PIN works today. It 
reduces fraud, period.
    In conclusion, Potash Markets has made significant 
investments of money and time to migrate to EMV. Unfortunately, 
we find ourselves waiting for our providers to get us across 
the finish line, while we face a busy holiday season with the 
threat of higher fraud liability over our heads.
    I greatly appreciate the Committee's interest in this very 
important issue, and I look forward to answering your 
questions.
    Chairman CHABOT. Thank you very much. Mr. Mierzwinski, you 
are recognized for five minutes.

                  STATEMENT OF ED MIERZWINSKI

    Mr. MIERZWINSKI. Thank you, Mr. Chairman. Chairman Chabot, 
Representative Velazquez, members of the Committee, I 
appreciate the opportunity to testify before you on behalf of 
the U.S. Public Interest Research Group. We are a coalition of 
nonprofit, nonpartisan public interest research groups around 
the country that take on powerful interests on behalf of their 
members.
    I really want to make three points in my opening statement. 
First, chip and PIN would have been better than chip and 
signature. Second, the reason that we went only to chip and 
signature is because the banks prefer it because they make more 
money. And third, a big issue before the Congress is data 
breach legislation. We urge the Congress not to pass any 
preemptive data breach legislation that takes away the right of 
the states to protect consumers from data breaches and other 
privacy and security risks.
    Chip and PIN is something that has been around in Europe 
for over 10 years, but the United States has only been using 
magnetic stripe technology, which is a 1970's technology, and 
only recently proposed to go, as the merchants have said, to 
chip and signature, which prevents a card from being cloned, 
which prevents information from being inserted into a 
merchant's computer, which can be used by a bad guy to commit 
existing account fraud, but it does not prevent the fraud of a 
card being stolen and being used by an imposter. If I have your 
wallet with your chip card in it, I can use your chip card 
without a PIN, and that is the problem that we are not solving 
today.
    Since I wrote my written testimony by the way, I found out 
that PIN technology also benefits merchants in online 
transactions, yet only one in five banks accepts online PIN 
debit. I am surprised that we think the fastest-growing part of 
fraud is going to be online fraud with the transition to chip 
cards, EMV technology, but why will the banks not allow the 
merchants to use a proven technology, PIN technologies, to 
prevent growing online fraud.
    Well, the reason for it is quite simple. Visa and 
MasterCard act as a cartel. They control their payment 
platforms. They drive traffic to their signature-based payment 
platforms. That is what they want to do. The interchange fight 
is, I would respectively point out, related to this because in 
the interchange fight, we also are fighting over whether 
merchants can give consumers signals or the right to choose a 
less expensive payment method. The fight is not over the cost 
of interchange; it is over whether there is competition for the 
Visa and MasterCard controlled networks. But the fact is they 
control those networks. They wanted to continue and extend 
their dominance of those networks. That is the reason we are 
only going to chip and signature, which only prevents part of 
the fraud problem.
    The October 1 switch really does not affect consumers 
directly. It is a business-to-business issue. As the three 
merchant witnesses before me have pointed out, in fact, we 
already have a tremendous amount of ways that the banks can 
collect money from merchants, and I would encourage you to ask 
them questions about what is the chargeback, and do you have 
any control over a chargeback? And do not the interchange fees 
already include fraud costs?
    I want to point out that consumers are already well-
protected by law from most existing account fraud costs. If 
only your bank account number or your credit card number is 
stolen, you are protected for 60 days on a debit card from any 
risk, and you are protected on a credit card from any risk of 
$50 or more forever. That is why I only use credit cards. I 
never use debit cards. The problem with debit cards is that 
many consumers, they get their money back from the bank but 
they face the problem of cash flow, bounced checks, while they 
are waiting for the bank to conduct a reinvestigation. But as 
long as you have not lost the card, when your liability goes up 
dramatically with a debit card, you are in good shape if you 
have only lost the number.
    In my remaining time I will just point out that there are 
many more fraud problems than existing account fraud. There is 
new account takeover identity theft. There is IRS tax refund 
fraud. There is theft of medical services fraud. And the OPM 
breach has demonstrated that another kind of harm that data 
breaches cause is reputational harm. The security clearance 
information that was lost by the OPM breach poses reputational 
risks. So I urge Congress, please do not pass almost any of the 
data breach laws before Congress that would narrowly protect 
consumers and broadly preempt the states from data security 
protections.
    Thank you very much.
    Chairman CHABOT. Thank you very much.
    Members now will have five minutes to ask questions, and I 
will yield myself five minutes to do that.
    Ms. Wade, I will start with you. What efforts have you seen 
made by the financial service providers to inform small 
businesses like yours of the EMV technology migration and the 
resulting liability shift? Have those efforts been helpful? Are 
there any things that you think should be added or changed in 
any way?
    Ms. WADE. Sure. You know, I have the luxury of seeing my 
card processor once a week. He has dinner with his wife in my 
restaurant every Tuesday night, so I have a really personal 
relationship with him. And so this is a conversation we started 
having this summer. I was aware that it was coming. I have 
total faith in him, and I know that when we go live, and we 
have not. I have the chip reader. It goes live in a week with 
this particular company. I have faith that it will happen 
seamlessly and it will not interrupt my business.
    Chairman CHABOT. Okay. Thank you very much.
    Ms. WADE. You are welcome.
    Chairman CHABOT. And the next one I would like to address 
to the three middle witnesses here. One of the things we heard 
at the last hearing is that some of the small businesses are 
waiting for the big stores to lead the way to transition to 
chip cards, and some of those big box stores have done so; 
others have not. How is the pace of the adoption of EMV 
technology by the big stores affecting--and a number of you 
have already gone ahead with this, but those in the industry 
that you all are part of, what are you seeing? Are folks 
looking towards the big box stores or not?
    Mr. Lipert, I know you are a little bit of a different type 
of business. In fact, let me come back to you. Let me ask these 
two gentlemen here that question.
    Mr. Scheeler?
    Mr. SCHEELER. Well, I can speak first simply because our 
stores technology involve what you would consider big box and 
also independent stores because we are branded by Exxon Mobil. 
So the communication from Exxon Mobil really started many years 
ago. But the fact that we have both branded and unbranded 
stores, that has dictated that since we are required by Exxon 
Mobil to be EMV compatible, we elected, both from a business 
decision and from a moral decision of protecting our customers, 
that we wanted to convert all of our, even our unbranded stores 
as well, at the same time or as close to the same time as 
possible.
    Chairman CHABOT. Thank you.
    Before I get to Mr. Potash, I meant to ask you one follow-
up question, Mr. Scheeler. Since you are branded by Exxon, you 
had mentioned the significant costs, and they certainly are in 
this. Will they pay a portion or a significant amount of that 
cost? How much of that would be on you versus the fairly large 
corporate entity that we are talking about here?
    Mr. SCHEELER. Yeah, 100 percent of the costs of this 
upgrade are on us as the business, and none of it is supported 
by Exxon Mobil.
    Chairman CHABOT. Okay. It is a bad deal.
    Mr. SCHEELER. It is.
    Chairman CHABOT. Mr. Potash, if you want to go back to the 
big box question that I had asked, how much reliance do you see 
amongst small business folks on kind of waiting until those 
folks decide which way they are going to go on this? Is that 
having much of an impact?
    Mr. SCHEELER. We were not waiting for the big box stores at 
all. In fact, we were trying to keep up with the big box 
stores. We wanted to be at the same level they were for 
protection purposes. My concern is that the fraud activity will 
move from the big box stores to the smaller retailers. You 
know, the weakest link. So the liability looms even larger than 
it did before. We knew about this well in advance. We bought 
the card readers back in May. We wanted to be ahead of the 
curve, and the backup system, with the rest of the links in the 
chain there, we are waiting on them still.
    Chairman CHABOT. Thank you.
    Mr. Lipert, at the hearing that we had a few weeks ago when 
it was mainly the banks involved, and they had argued that 
there was relatively low costs in a number of incidents, even 
down to $49, you have obviously indicated that the costs are, 
in your words, overwhelming and costly. What would be your 
recommendation? I mean, how do you think this ought to be 
handled differently?
    Mr. LIPERT. All of this, thank you, in terms of what to 
recommend, my specialty is I am a shopkeeper. I will tell you 
that when this came rolling in, I called my merchants. First, 
the provider of the equipment for what the recommendations 
were. They gave me a couple of options that made me a little 
anxious about what was going on. I was anecdotally told that 
some of these EMV machines were not working properly yet. I was 
told that at restaurants it had been a problem because the EMV 
technology, they were having trouble because they were 
certified but then they could not do tips, and so there was 
that. I was told that there were some problems because the 
transaction takes longer. And all these things made me a bit 
nervous. And I am a little technologically phobic anyway. So I 
then called my bank and I asked them to help me, to see if 
there was another decision. There they sent me to somebody 
else. They sent me to the bank. I think in this case First 
State, or I had to another fellow. He told me I could buy a 
machine for $600 that would go into my phone line or into a 
modem, but it could not work with my POS system. And the point-
of-sale system is the system that allows me to know my customer 
history, and I have had it for 10 years, so 10 years of 
history, 10 years of inventory management. It sort of helps me 
run my business. And he said I could either use this device, 
the EMV device which was separate from my POSs for $600, or he 
could sell me another POS system, but that system would not be 
compatible with my existing POS system so I would lose 10 
years' worth of information. My merchant provider had said to 
me that whatever you do, do not go back to the side thing 
because it is going back to the dark ages because now you will 
have taken the customer staff, the inventory staff away from 
the payment staff and I would have to do it manually. And so 
that was a step backwards for me.
    So I hope I have answered your question. It has been a bit 
overwhelming.
    Chairman CHABOT. And I can certainly relate to being, I 
think you said technologically phobic.
    Mr. POTASH. It makes me very nervous.
    Chairman CHABOT. I certainly feel that way myself very 
often. But I will now yield to the ranking member for her time.
    Ms. VELAZQUEZ. Thank you.
    Mr. Lipert, can you explain why you, as a retailer, are 
more likely to bear the loss in a chip and signature 
transaction?
    Mr. LIPERT. Can you repeat that to me?
    Ms. VELAZQUEZ. Can you explain why you, as a retailer, are 
more likely to bear the loss in a chip and signature 
transaction?
    Mr. LIPERT. Well, at the moment, when someone comes in with 
a fraudulent card, if it is EMV enabled and I put it into the 
machine, it will go through. So the signature does not really 
protect, as I understand it, who that person is in front of me. 
I just know that the card is real. In chip and PIN, I know that 
both the card is legitimate, and when they put the PIN that the 
person is legitimate. And I think that the problem with the 
system at the moment is we divided that. So I am more liable 
without the PIN.
    Ms. VELAZQUEZ. Is there a way to better verify the 
signature?
    Mr. LIPERT. We must ask for their driver's license or other 
forms of identification.
    Ms. VELAZQUEZ. And that might require additional training 
to the employees.
    Mr. LIPERT. Well, it is me. It is me and one other person.
    Ms. VELAZQUEZ. What about a store that has more than one?
    Mr. LIPERT. It is more than one. Yes.
    Ms. VELAZQUEZ. Mr. Mierzwinski, you noted that Congress has 
occasionally examined legislative solutions to our nation's 
data breach program. However, one criticism of such efforts is 
the cost on small businesses where fraud is unlikely to reach 
the magnitude of those breaches suffered by the big box stores. 
In your opinion, what should small businesses be doing to 
protect their customers' data?
    Mr. MIERZWINSKI. Well, I think all businesses have a 
responsibility under the Gramm-Leach-Bliley Act and other 
legislation, and just good common sense, to protect the 
information of their customers. And so I would use best 
available technology industry standard practices is what I 
would do. But the problem we face here today with this issue, 
the issue of chip and PIN versus chip and signature to respond 
to the question you asked the previous witness, is really, we 
went to something that was best for banks, not something that 
was best for everybody. So as Congress goes forward, I would 
recommend, try to come up with technologically neutral 
performance standards that push industry to do a better job 
without forcing anything on people.
    Ms. VELAZQUEZ. Yes. We have heard in previous hearings, 
anecdotal stories that U.S. consumers are the ones driving the 
use of signature instead of PIN as a matter of convenience. 
Would you expect any significant consumer pushback if more 
banks did require PINs?
    Mr. MIERZWINSKI. Not at all. And by the way, we know of at 
least two banks, Target Bank and First Niagara Bank in Upstate 
New York, that are requiring chip and PIN. And also, the 
Federal Government, in all its cards, is requiring chip and PIN 
under an executive order by the president. I do not think 
consumers will push back. If merchants were allowed to tell 
them more, to signal to them more that it costs them more to 
pay for fraud on a signature-based platform than on a PIN-based 
platform, the consumers would not push back.
    Ms. VELAZQUEZ. Any comments from the other witnesses?
    Mr. SCHEELER. I can add to that, Ranking Member Velazquez. 
We deal with hundreds of card-based transactions per day in our 
industry, and I can say from experience that a PIN-based 
transaction takes no more time than a signature-based 
transaction. In fact, I would argue that it is actually a 
little bit quicker.
    In addition to that, our argument for PIN, you know, I 
carry a debit card. I would imagine most people in this room 
carry a debit card that carries a PIN with it, and any time 
that we walk up to an ATM, ATMs that are invented by the banks 
using cards invented by the banks, most of them owned and 
operated by banks, every single time we have to utilize a PIN. 
If they are requiring that, there must be something to that. 
And I think us as retailers should have that option as well.
    Ms. VELAZQUEZ. Thank you. Thank you, Mr. Chairman.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    The gentleman from Missouri, Mr. Luetkemeyer, who is the 
vice chairman of this Committee, is recognized for five 
minutes.
    Mr. LUETKEMEYER. Thank you, Mr. Chairman.
    Ms. Wade, I was curious. We had a little different cost 
here and I want to get to Mr. Scheeler in a minute and find out 
what the reason was for his cost. But you indicated in your 
testimony that it cost you about 300 bucks?
    Ms. WADE. Right.
    Mr. LUETKEMEYER. It is a one-time cost; is that correct?
    Ms. WADE. It is.
    Mr. LUETKEMEYER. So in other words, how often do you change 
software on your computers or even buy a different computer to 
be able to maintain the kind of records you need and the 
interaction with other merchants and all of your other filings 
that you have to do?
    Ms. WADE. Okay. So I have been in business close to five 
years. I started out with a national processing server. I used 
them for two years and then I became familiar with a local 
processing server. So in the five years that I have been in 
business, I have switched one time, and it is because my local 
processing server offers incredible customer support and I have 
a personal relationship with him.
    So I look at this fee, I mean, technology becomes 
antiquated pretty quickly. I do not assume that I will not in 
the future--I am going to keep up with technology--have to 
update again. I am prepared to do that. It is sort of like when 
the iPhone comes out; I like to have the newest one. I like to 
be up on technology. I embrace it. I think it is part of doing 
business and it is something that I understand and I am 
committed to doing.
    Mr. LUETKEMEYER. You know, you made a comment a minute ago 
in your testimony that you do not take checks.
    Ms. WADE. I do not.
    Mr. LUETKEMEYER. Unless it is from a very well-established 
customer. So in other words, you do not have a wall behind the 
cashier there with all your checks pasted on the wall----
    Ms. WADE. No.
    Mr. LUETKEMEYER.--pasted on the wall there so people can 
see the folks who are kind of the stinkers in your community 
that you have got to be careful of?
    Ms. WADE. Right. No, I do not have the wallpaper check wall 
behind my cash register. That is a little antiquated, too.
    Mr. LUETKEMEYER. So the convenience and safety of the cards 
make it something--you are willing to pay the cost for the 
convenience and safety?
    Ms. WADE. I am. I look at it as an insurance policy for my 
business and I look at it as one for my customers. I live in a 
community where most of my customers are a little older, and I 
think that they also value that.
    Mr. LUETKEMEYER. And to me, you know, it is interesting, 
you know, if we knew that there were--if you knew in the 
neighborhood, for instance, that there were a lot of burglaries 
going on, you would be willing to spend some money probably to 
put a burglar system in to keep your business safe. Would you 
not?
    Ms. WADE. Absolutely.
    Mr. LUETKEMEYER. This kind of, I would think, would be 
equated to that. That is a way to keep your money safe, your 
transactions safe, and minimize the fraud that can happen.
    Ms. WADE. Yeah. I really believe it is the cost of doing 
business, and I am a very tiny business. Probably the smallest 
one of everyone up here on this panel. And I choose that. And 
it is just, for me it is the cost of doing business, and I look 
at it as another insurance policy, and I am so insured. I am 
probably over insured. But that is piece of mind for me, and I 
think that that is important for my customers.
    Mr. LUETKEMEYER. Thank you for being here, and I appreciate 
your entrepreneurial spirit.
    Ms. WADE. Thank you.
    Mr. LUETKEMEYER. Mr. Scheeler, you talked about the cost of 
your system, which is significantly different. I assume it is 
probably from the standpoint that as the kind of business that 
you are in, the transactions that you take at the pump are more 
complicated perhaps than what they are at Ms. Wade's 
restaurant? Or are they not? What is your costs? I am trying to 
make sure I understand the difference here.
    Mr. SCHEELER. Absolutely. And that is a terrific question, 
Congressman Luetkemeyer.
    I wish our system was as simplified as Ms. Wade's. However, 
in our industry, what we deal with is, first of all, we deal 
with transactions inside and outside the store. At our largest 
location, we have 21 different fueling stations, all which have 
their own independent card readers, which is a piece of 
hardware in and of themselves.
    Mr. LUETKEMEYER. Excuse me. What does that card reader cost 
for each one of those different----
    Mr. SCHEELER. Each individual reader is about $1,500 each, 
or $2,000--$3,000, I am sorry, per dispenser, because they 
include both sides of the dispenser. So about $3,000.
    Mr. LUETKEMEYER. Why is it so much more expensive for that? 
Just the type of transaction that you are involved in?
    Mr. SCHEELER. Certainly. The network that we are on, it is 
a fully integrated network that connects our fuel dispensers, 
our cash registers and point-of-sale system, our back office 
system, our scanners, and of course, our instore card readers. 
So the IT that goes along with that, and we are talking 
hardware and installation, is pretty extensive.
    Mr. LUETKEMEYER. Okay. One thing that all three of you 
gentlemen have talked about is that you prefer to see the PIN 
incorporated into this as well. Is the equipment that you are 
installing, is it going to be able to read the PIN as well 
right now?
    Mr. SCHEELER. I can speak for myself and my industry. I 
know that every card reader in my businesses have the ability, 
and always have had the ability to accept PIN.
    Mr. LUETKEMEYER. Because I can tell you just from the 
testimony we had the other day, you know, the card companies 
are in the process of--this is a step-by-step process. Over the 
next 10 to 15 years, we are going to go from this to PINs, to 
some sort of biometric type of thing where you put your 
thumbprint on it or eye scan or whatever. I mean, they are 
going even further here. So, I mean, this is going to continue 
to evolve to where it gets more and more safe all the time.
    But I see my time has run out, but I again thank you for 
your comments.
    Chairman CHABOT. The gentleman yields back.
    Would the gentlelady from California yield for a moment so 
I can ask a quick question?
    Ms. HAHN. Yes.
    Chairman CHABOT. I thank the gentlelady for yielding.
    Mr. Scheeler, in the gas distribution business, your 
industry gets an additional two years, I believe, to implement 
all this. Is that correct?
    Mr. SCHEELER. The additional time involves pay-at-the-pump. 
So there is some additional time that we get to get that 
converted, whereas our instore is in line with everybody else.
    Chairman CHABOT. Okay. Thank you very much.
    The gentlelady from California, Ms. Hahn, is recognized for 
five minutes. Thank you for yielding.
    Ms. HAHN. You are the chairman. What am I going to do? Of 
course I am going to yield to you. I may be new around here but 
I know the rules.
    Thank you, Mr. Chairman, Ranking Member, for holding this 
hearing.
    As you have heard, we had another hearing a couple weeks 
ago and sort of heard a different story. We heard from the 
banks. We heard from Visa, who sort of painted a little bit of 
a different picture about what this process actually involved, 
particularly when it came to small businesses. So it is great 
that we are hearing from the small businesses this morning.
    I conducted an informal survey with the small businesses in 
my community and just sort of asked them did they know, did 
they understand when October 1st came that that really was a 
pretty significant date in terms of the liability for fraud 
being 100 percent shifted to small businesses if they did not 
have this chip technology. So I found the majority of them 
really did not understand that October 1st date. And, in fact, 
I then held a small business seminar with Hispanic business 
owners who I found that level of knowledge was even lower in 
terms of their understanding. And many of them, English was not 
their first language, so I did not really think these banks did 
a good job. I mean, I think Visa told us they did a 20 city 
tour to roll out this new technology, which I thought was a 
little limited concerning how big this country is, that they 
only did it in 20 cities.
    So I was going to ask Mr. Lipert, you know, and maybe if 
the other of you want to answer it, except for Ms. Wade who has 
dinner every week with her bank. That is sort of an unfair 
advantage. How was the process when you actually understood 
this October 1st deadline, and do you feel like it was--and I 
know you speak for the National Federation of Retailers--do you 
feel like there was a good sense, particularly maybe for 
business owners who had some language barriers, on the rollout 
of this new technology?
    Mr. LIPERT. My experience was that from my involvement with 
my trade association, I was aware. And that did give me a leg 
up in starting the process of asking the questions of both my 
equipment supplier and then my bank. The responses I got from 
both really made me more nervous about the whole business, 
which sort of slightly froze me to put off this. In my store, I 
care very much about fraud and about my customers. I am a small 
store and I know my customers, so I think I am going to go the 
route of EMV and put into right all the things that are 
necessary, but I would like to feel that what I am doing is 
really going to help. And part of the problem is, as I 
experience it in the shop, someone coming in with a fraudulent 
card, it is still going to pass through the system anyway. I am 
not going to be able to prevent that aspect of it. If they got 
a proper EMV and I got the machine, it puts in, it goes 
through. If it is fraudulent, it is not going to make a 
difference. It is going to go through. So I want to make sure 
that I do the right thing for my customers. I try to do the 
right thing for myself, and try and sort out, you know, what is 
the right technology. And there are so many different 
technologies coming at me at the moment.
    Ms. HAHN. Right. Right. Well, thank you.
    I know I only have 50 seconds left, but I am going to move 
to Mr. Mierzwinski. And you all have been talking about the 
chip-PIN, chip-signature, and it seems like the chip signature, 
while maybe less secure, seems to earn more money for the 
banks. Could you elaborate a little bit more exaclty what is 
the difference of the fees that the bank may earn for the 
signature versus the PIN?
    Mr. MIERZWINSKI. Well, very quickly, Congresswoman, Visa 
and MasterCard own the signature networks that they try to 
drive all traffic to. Some of the PIN networks are owned by 
them but there are choices that merchants can select to have 
PIN networks owned by others that have lower swipe fees. That 
is really it in a nutshell. Visa and MasterCard have market 
power so they have very high swipe fees on their network which 
they trick consumers into using.
    Ms. HAHN. And is that an impact on the consumers?
    Mr. MIERZWINSKI. Absolutely. Consumers pay more at the 
store and more at the pump because the merchants are forced to 
bake these higher costs into their prices.
    Ms. HAHN. Good information. Thank you.
    Chairman CHABOT. Thank you. The gentlelady's time has 
expired.
    The gentleman from South Carolina, Mr. Rice, who is the 
chairman of the Subcommittee on Economic Growth, Tax, and 
Capital Access is recognized for five minutes.
    Mr. RICE. Thank you, Mr. Chairman. And I am sorry, I cannot 
read your nametag down on the very end there. Yes, sir. Can you 
tell me, you know, I understand from my old law school 
commercial paper about banks' liability for checks and they are 
supposed to recognize the signature and credit cards, and a 
little bit about debit cards. But can you explain for me, 
because you sound pretty knowledgeable about it, about online 
banking? Let us take it beyond the scope of this hearing a 
little bit. If you do online banking and you get on and you 
transfer money around, where does the liability lie there?
    Mr. MIERZWINSKI. Congressman, in the interest of full 
disclosure, I am not a lawyer, although I do play one on 
television, but I have been working in this field for quite 
some time. Most transactions that are electronic are covered 
under the Electronic Fund Transfer Act. So your direct deposit 
of your paycheck and your use of debit cards and ATM cards is 
covered by that law. That law has a completely different fraud 
and liability standard than the Truth in Lending Act which 
covers credit cards. But when you are talking about online 
banking, you may also be getting into Uniform Commercial Code 
and other issues. But I think the big issue here today, the big 
question here today is in addition to the laws, you have the 
Visa and MasterCard rules. And in one of Congresswoman Hahn's 
questions, I believe she talked about the merchants not really 
understanding the rules or being told about the rules, and that 
has been a common problem in this space. So online banking, as 
opposed to online retail, it is all changing.
    Mr. RICE. Well, if a merchant accepts a fraudulent card 
under the old rules, before chip technology, magnetic stripe, 
who bears the responsibility for that?
    Mr. MIERZWINSKI. Well, it depends on whether the merchant 
was in compliance with what are known as the PCI (payment card 
industry) standards.
    Mr. RICE. Assuming that they were.
    Mr. MIERZWINSKI. Did the merchant check on the back--if it 
is an online merchant, for example, did the merchant comply 
with the requirement that they check the three-digit code on 
the back of the card, which is something that is typically not 
transferred when only the front of a card or card information 
is swiped. If it is a gas station, did the merchant do things 
like ask you for your zip code or some of the other 
requirements? So it all depends on the rules and whether the 
rules were filed. Some of the merchant witnesses may have more 
to add on it.
    Mr. RICE. But if they did comply with those rules, who 
bears the responsibility?
    Mr. MIERZWINSKI. Well, generally, that is something that I 
cannot answer because I am neither a merchant, nor a bank, but 
I can tell you that the merchants and the banks have argued 
about this in court, they have argued about this in Congress, 
and the banks have this tremendous hammer, Congressman, what is 
called the chargeback. They do not get paid for their 
electronic transactions until the bank decides to pay them. 
They can keep the money through the chargeback process or they 
can even take it back later.
    Mr. RICE. I thought under the law that, assuming that the 
merchants undertook their due diligence, that the credit card 
issuer was ultimately responsible.
    Mr. MIERZWINSKI. But if you are a small 7-Eleven or a small 
convenience store and the bank takes your money and says it is 
your fault.
    Mr. RICE. You are saying that may not be practical?
    Mr. MIERZWINSKI. It is not practical.
    Mr. RICE. Even though it is the law?
    Mr. MIERZWINSKI. That is my understanding of the way it 
works.
    Mr. RICE. Anybody up there want to add anything to that?
    Mr. SCHEELER. I can add that I have heard the term `` 
liability shift'' thrown out with this EMV transition, and that 
has always confused me because I see chargebacks at every one 
of my stores, every month, of every year, that I am responsible 
for. The most recent one that I dealt with, I was sent the 
transaction information after it was disputed by whomever, by 
the cardholder, of the day and time and the amount of that 
transaction, with instructions on what the card network needed. 
I followed exactly what they needed. I found the actual signed 
slip that the customer signed, sent it in, following 
instructions, and I got a letter back in the mail that said, `` 
We cannot verify this transaction.'' So we did not get paid on 
it. So liability shift, I do not understand it because in my 
mind we have been liable this whole time.
    Mr. RICE. Well, I think under the law, that you are not 
liable. Now, practically collecting that, I am not sure. And I 
think if you were liable for fraudulent cards and that was a 
widespread practice, I do not believe too many people would 
take the credit cards. I think that is one of the incentives to 
take them.
    But anyway, I yield back.
    Chairman CHABOT. Thank you. The gentleman's time has 
expired.
    If I could take the prerogative of the chairman, how much 
of the transaction for that was in dispute?
    Mr. SCHEELER. It was either $46 or $56. I do not remember 
the exact amount.
    Chairman CHABOT. Okay. Thank you.
    The gentlelady from Michigan, Ms. Lawrence, is recognized 
for five minutes.
    Ms. LAWRENCE. Thank you.
    Mr. Lipert and Mr. Scheeler, you both represent the 
National Retail Federation Convenience Store Association where 
you are small business owners. So let us be clear. There seems 
to be less of an urgency for smaller businesses that handle low 
volume or you know your customers, like Ms. Wade has said. It 
is a smaller community, so you know your customers basically 
when they come in. How can we encourage small business owners 
to make this transition? How do we make the case that the 
challenges that a small business owner are faced with during 
this process is worth it? Can the two of you please comment on 
that?
    Mr. SCHEELER. I think that is a terrific question. I think 
depending on the volume of the store, economically, there is a 
legitimate question over whether the upgrades should take place 
or not. I think what really should be the deciding factor for 
any legitimate businessperson is, do I have a moral 
responsibility to my customers? Do I want them to feel 
comfortable processing their payment cards in my place of 
business? And I think most businesses would say, `` Yes, 
absolutely I do.'' So I think speaking for just ourselves and 
our smaller stores, that was a deciding factor when I was 
making the decision to transfer to EMV.
    Ms. LAWRENCE. I did not really get an answer before. At 
least I did not hear it. What is the cost that you say if you 
average it out for small businesses to be able to have the 
equipment and to transfer to this new technology?
    Mr. SCHEELER. Okay. And again, it is going to be different 
for my industry as opposed to others. The industry average in 
the convenience store industry is about $26,000 per store 
because there are so many different moving parts involved. As I 
said in my testimony, it was about $44,000 per store because 
there were some other considerations involved as well. So the 
bottom line is the numbers are pretty significant.
    Ms. LAWRENCE. Okay. Mr. Scheeler? That is you. So, Mr. 
Lipert?
    Mr. LIPERT. I think for small stores like myself, I think 
if we could be provided secure payment technology and payments 
that are transparent and competitive, this would be really 
helpful.
    Ms. LAWRENCE. Absolutely. We want to protect our customers. 
We care about our customers. When I started my testimony, I am 
a shopkeeper because I love my stuff and I love my customers. I 
want to do the best for them and give them the best service and 
experience.
    One thing I would just like to add is that in terms of this 
cost, I was given an option of doing an EMV reader. So that is 
the actual little boxy thing that plugs into a model or into a 
phone line that can take a payment. That I was quoted $600 for. 
The problem for small businesses, shops that have stuff, shops 
where there is inventory, shops where there are customers that 
are repeating and coming in, in order to just stay current, we 
have to have a point-of-sale system, and the point-of-sale 
system is the thing that sort of links my stuff to my customers 
so that I can look back and see who bought what, did what, and 
all the rest of it. And it is connected also to the payment. 
Once you get into that, it becomes very expensive, and this is 
the problem, and this is what is causing me such reluctance. 
Yes, I could go and buy the box, but as my equipment provider 
said to me, `` Do not do that, Keith. That is going back to the 
Dark Ages.'' So that is my dilemma. Yes, I can buy the box for 
$600 and satisfy a minimum requirement, but it does not help me 
try and keep my business current and competitive with all the 
other stuff that is going on in our industry.
    Ms. LAWRENCE. Thank you for that.
    Just briefly, Mr. Mierzwinski, in your testimony, you 
highlighted that the Federal Trade Commission noted that the 
EMV rollout and the October 1st deadline is being taken 
advantage of by scam artists. Can you elaborate on that?
    Mr. MIERZWINSKI. Well, certainly, Congresswoman. The scam 
artists come out every time there is a new way that they can 
hook an old scam up to it. And in this case, consumers are 
getting letters that claim to be from their bank that are 
trying to obtain information. They say, `` You have not gotten 
your chip card yet. You are in trouble. We are going to send it 
to you but first you need to verify your current account 
number.'' They trick you, social engineering, into giving them 
information that allows them to rip you off.
    I would point out that I think, I am speculating here, that 
I am sure there are also similar scams directed at the 
merchants, trying to get them to buy weak technology or 
overpriced technology that will not work. That typically 
happens as well, small business fraud.
    Chairman CHABOT. The gentlelady's time is expired.
    Ms. LAWRENCE. Thank you.
    Chairman CHABOT. Thank you.
    The gentleman from Nevada, Mr. Hardy, who is chairman of 
the Subcommittee on Investigations, Oversight, and Regulations 
is recognized for five minutes.
    Mr. HARDY. Thank you, Mr. Chairman.
    In the wake of this change and during this process we have 
seen a lot of fraud going on, and also the businesses having 
the opportunity to change. Are there certain levels or 
categories we find through the fraud process that if you have 
certain information you can categorize your information that 
can be breached through this process? This would probably be 
best for you, Mr. Mierzwinski. Are there levels that businesses 
can take of this or is it open, you know, my data, I do not 
want all my information out there, but when you have a credit 
card and you file for it, you pretty much give the bank all 
your information. Does that liability fall back on these small 
businesses when all that liability is reached? Or are there 
certain levels you businesses have that you can only acquire? 
Does it make sense what I am trying to ask there?
    Mr. MIERZWINSKI. Well, I think, Congressman, you have asked 
a couple of questions. But going to EMV or chip cards is going 
to prevent merchant computers from getting your credit card or 
debit card number inserted into them. It basically makes every 
transaction establish a one-use number based on that 
transaction. So the big breaches with thousands of cards being 
cloned will no longer occur from chip cards, but there will 
still be fraud by imposters, and there will still be bad guys 
digging into computers systems to obtain the other kinds of 
information that allows them to also commit new account 
identity theft, or in the case of the IRS, steal your tax 
refund, et cetera. So I would leave it to the merchants. The 
merchants have an issue with the banks. As of October 1st they 
are saying if you have not installed readers for chip cards, 
you will be more liable, but as the merchants have already 
pointed out, we are already liable.
    Mr. HARDY. I guess this is for all the merchants. The 
question I would have is it sounds like a cost for each one of 
you, where does that cost get handed down to? We know where it 
goes but I do not think you take it on yourself. Does that get 
passed on to the consumer, these changes? And is it 
exponentially higher for certain businesses and lower for other 
bigger businesses? Does anybody care to address that?
    Mr. SCHEELER. I would, Mr. Congressman. Thank you.
    I think the free market would dictate that typically those 
costs would get passed on to consumers. In my industry though, 
I see it differently simply because our primary product in the 
convenience store industry is gasoline. We are the only 
industry in the world that puts a big sign up on the corner and 
plasters our gas price up there for everybody to see. So if I 
decide to raise my price two cents, whatever it might be per 
gallon, the guy down the street, in true competition, may or 
may not do that. So market forces will drive that price in our 
industry, so I do not think that applies because of the 
transparency that we carry that quite frankly the banks do not 
know much about.
    Mr. HARDY. This process of we are doing chip and signature 
now, and I know the banks have committed they are going to move 
towards PIN and other identification processes. Do you have any 
idea why they are waiting and why we did not try to implement 
this at the time with the technology? Mr. Mierzwinski, maybe 
you have that idea.
    Mr. MIERZWINSKI. I think nobody can figure out any reason 
that the banks are delaying and slow-walking this transition 
except that they make more money on chip and signature than 
they would on chip and PIN because there would be competing 
networks that merchants could choose or encourage their 
customers to choose that are owned by different people than 
Visa and MasterCard. Consequently, the banks would earn less 
money. That is really the reason that I can see.
    Mr. HARDY. Thank you, Mr. Chair. Most all my other 
questions have been asked prior to this, so I will yield back.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back.
    And we want to thank the witnesses for their testimony here 
today. We have now heard a couple of weeks back from the 
bankers and credit card issuers on one hand, and we have heard 
from the retailers this week, so we have, I think, a good sense 
from both sides where some of the issues are and what is 
happening. I think you have helped educate the Committee, and 
hopefully through our means of communicating to the public, we 
will be educating the public more and more, as well, because 
they are, after all, going to be directly affected by this very 
important issue.
    I would ask unanimous consent that members have five 
legislative days to submit statements and submitting materials 
for the record.
    Ms. VELAZQUEZ. Not in Washington.
    Chairman CHABOT. Not in Washington. Although I have to 
note, I am not a frequenter of art galleries, but your shop, 
Mr. Lipert, sounds like it would be a fun place to go and 
interact and just see all the things that you have there. So it 
is not a commercial, but I thought your testimony was very 
helpful, as was all the testimony that we heard this week, as 
well as a couple weeks ago.
    So if there is no further business to come before the 
Committee, we are adjourned. Thank you very much.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]
                            A P P E N D I X


Hearing Entitled ``The EMV Deadline and What it Means for Small 
                     Businesses: Part II''

Testimony of Jami Wade, Owner, Capitol City CORK and Provisions 
          and Executive Director, Capitol City Cinema

  Before the U.S. House of Representatives Committee on Small 
                            Business

                        October 21, 2015

    Good morning, Mr. Chairman, Ranking Member Velazquez, and 
other Committee Members. My name is Jami Wade, and I am the 
owner of Capitol City CORK and Provisions, a wine shop and 
restaurant in historic downtown Jefferson City, Missouri, just 
a few blocks from the Missouri State Capitol. I am also the 
executive director of the Capitol City Cinema. I would like to 
thank the Committee for the opportunity to speak today about 
the matter of small businesses upgrading their payment card 
terminals so that those terminals can read the new chip-enabled 
payment cards.

    I began my adult life as a high school teacher in Columbia, 
Missouri. Five years ago, I moved from Columbia to my home town 
of Jefferson City and opened Capitol City CORK and Provisions. 
I have five employees at the restaurant, and we serve a 
seasonal and changing menu with locally sourced food. We can 
only seat 32 patrons at our tables, so we truly are a small 
business. Next door to Capitol City CORK is the Capitol City 
Cinema, a single-screen movie theater that specializes in 
showing independent, foreign, and documentary films. It is a 
non-profit, community-based, member-supported movie theater.

    As the owner of one small business and manager of another, 
I have to rely on myself to exercise sound business judgment. 
Any misstep could have serious consequences for the businesses 
I run and the people I employ. The manner in which we get paid 
is essential to our ability to generate cash flow, pay the 
bills, and stay in business. Acceptance of payment cards is the 
life-blood of our operations. First of all, approximately 90 
percent of the restaurant's sales are made through debit or 
credit card transactions. When a customer pays with a card, I 
always know I am going to get paid, get paid quickly, and get 
paid without hassle. My restaurant has never even had to deal 
with a disputed card transaction. Also, it may just be the 
result of basic human nature, but it seems that customers are 
willing to spend a little more--maybe an extra glass of wine or 
dessert--when they are paying with cards instead of cash. For a 
small business, that's valuable. On the other hand, we don't 
accept checks other than for special events and, even then, we 
only accept them from well-established clients. We cannot run 
the risk that checks will bounce and we won't get paid, leaving 
us to come out of pocket to cover costs.

    At Capitol City Cinema, many of our customers still 
purchase their movie tickets with cash. But, we do accept 
cards, and we often see customers making purchases of higher-
priced items with cards. For example, they might sign up for an 
annual membership giving them discounted admissions and other 
perks throughout the year. These purchases are essential to the 
business, because without our member support we could not 
remain operational.

    At both Capitol City CORK and Capitol City Cinema, we have 
been fortunate never to have been the victim of payment card 
fraud. I know first-hand, however, that the threat is real. A 
few years ago, my husband was the victim of a breach at a 
grocery store in Jefferson City. His card information was 
stolen, and the hackers ran up seven thousand dollars in 
charges. I am glad to say that we were not held responsible for 
paying for those transactions, because those fraudulent charges 
would have done serious damage to our personal finances. Both 
of my businesses rely on card payments, particularly my 
restaurant, and I will tell you that it would be a very big 
deal for us to absorb the costs associated with even one major 
incident of fraud. The potential liability would be seriously 
detrimental to our business, especially at Capitol City CORK. 
This is why I have made the business decision to upgrade to 
terminals that can read chip-enabled payment cards at Capitol 
City CORK and Capitol City Cinema.

    As a bit of background, I'm lucky to have a good 
relationship with my processor, another small business located 
a block away from the restaurant and the movie theater. The 
processor is the company that sells and services the technology 
for my businesses to be able to accept card payments and get 
connected to a merchant acquirer. Because I talk to my 
processor on a regular basis, I was able to learn about the new 
chip-enabled terminals that were becoming available and my 
processor explained to me about the liability shift well before 
it went into effect on October 1. For now, it seems that most 
of the local banks and credit unions in Missouri have not 
issued cards with chips on them, but I understand that this is 
coming soon. When it happens, I want to be prepared and I want 
to be protected by the liability shift--this means putting in 
new terminals.

    The total cost for a new chip-enabled terminal at Capitol 
City CORK is about three hundred dollars. Yes, this an out-of-
the-ordinary expense for the restaurant, but I do not consider 
it to be a financial burden given the peace of mind that a new 
terminal will provide. I look at it as paying a small premium 
for an insurance policy to protect the restaurant against a 
potentially significant downside. After having survived the 
first few years running my own business--a period in which many 
new start-ups fail--I cannot imagine leaving my business 
vulnerable to external threats when there are reasonable steps 
that I can take to protect it. Furthermore, from all of the 
information I've received from my processor, I expect the 
process to upgrade to the new terminal to go seamlessly, 
without any disruption to our everyday business. In fact, we 
have the new terminal on site. It just hasn't ``gone live'' yet 
but should by the end of this month.

    I also learned that a chip-enabled card reader is available 
for only fifty dollars for the Cinema. I have voiced my support 
for making the upgrade, and the decision whether to make the 
purchase is currently pending before the Cinema's board of 
directors.

    I am a person who left her job to pursue a vision of 
running her own business. When I get out and talk to other 
members of the downtown Jefferson City community, every small 
business owner has a story that is unique, but most of us have 
in common that we accept payment cards because they are 
valuable to our businesses. In light of the recent headlines 
about several data breaches over the last few years, many other 
small business owners in Jefferson City and I wonder, what's to 
stop it from happening here? They share my concerns and want to 
do everything they can to protect their businesses and their 
employees--and I suspect that this sentiment is widespread 
across the country. I do believe that it is up to each business 
owner to make the proper decision for his or her own business. 
Some small business owners will no doubt choose not to upgrade 
their terminals, whatever the reasons. In my opinion, they are 
putting their businesses on the line by leaving them 
susceptible to fraud in card transactions. As I started out 
saying, as a small business owner, I have had to rely on myself 
and my own sound judgment in making my vision a reality. I will 
continue to do so as I look ahead, and upgrading to chip-
enabled technology is the right decision to ensure that my 
business is around long into the future for my family, my 
employees, and my customers.

    I appreciate the opportunity to share my experience with 
the Committee today, and I welcome any questions that you may 
have.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman Chabot, Ranking Member Velazquez, and 
distinguished members of the Small Business Committee, thank 
you for inviting me to testify at this important hearing, ``The 
EMV Deadline and What it Means for Small Businesses Part II.'' 
My name is Keith Lipert and I am an independent shopkeeper. I 
own The Keith Lipert Gallery, and my storefront can be found 
right here in Washington, DC and online at keithlipert.com. I 
am a sole proprietor with one full-time employee and two part-
time employees. I love being a retailer and I love serving my 
customers.

    In addition to running my store, I serve on the Board of 
Directors at the National Retail Federation (``NRF''). NRF is 
the world's largest retail trade association, representing 
discount and department stores; home goods and specialty 
stores; Main Street merchants; grocers; wholesalers; chain 
restaurants; ad Internet retailers from the United States and 
more than 45 countries. Retail is the nation's largest private 
sector employer, supporting one in four U.S. jobs and 42 
million working Americans. Retail contributes $2.6 trillion to 
annual GDP and is a daily barometer for the nation's economy. 
Retailers create opportunities for life-long careers, 
strengthen communities, and play a critical role in driving 
innovation. Many of NRF's small business members, like millions 
of other small merchants, are being adversely affected by the 
card brands concerted effort to force us to further adapt our 
operations to their flawed card system. I want to give you a 
sense of our challenges and ask for your help.

    When I opened my doors in Georgetown in 1994, I intended to 
be a successful merchant by selecting beautiful items to sell 
and by taking care of my customers. In those days, unique 
merchandise and quality customer service were enough to keep 
customers returning to my store and manual sale slips were 
enough to conduct credit card transactions. Today, that simple 
business model is being disrupted with overwhelming challenges 
such as online competition, evolving point-of-sale systems 
(``POS''), and the constant struggle to keep up with ever-
changing compliance standards and ever-increasing credit card 
interchange rates, or swipe fees. All retailers, no matter the 
size, are being held to technological standards that even some 
of the most sophisticated businesses in the world have yet to 
master.

    EMV (the name is from the initials of the owners--Europay 
MasterCard Visa) is a proprietary standard that was created by 
the largest card companies to be imposed on retailers. U.S. 
banks are just now issuing updated cards with chip technology, 
protected by the signature authentication (``chip and 
signature''). Consumers around the world have been using chip 
cards for decades. However, in the rest of the world chip cards 
are accompanied by Personal Identification Numbers (``PINs''). 
PINs are proven to be a much more secure authentication method 
in transactions and, unlike Chips, effectively reduce nearly 
all types of fraud. In fact, according to the Federal Reserve, 
PIN cards are up to seven times more secure than Signature 
cards \1\. Chips help protect the physical card and PINs 
reliably authenticate the consumer. This combination is 
precisely the sort of protection that the American consumer 
wants now \2\.
---------------------------------------------------------------------------
    \1\ Board of Governors of the Federal Reserve System, ``2011 
Interchange Fee Revenue, Covered Issuer Costs, and Covered Issuer and 
Merchant Fraud Losses Related to Debit Card Transaction,'' March 5, 
2013, p. 25, http://www.federalreserve.gov/paymentsystems/files/
debitfees<INF>--</INF>costs<INF>--</INF>2011.pdf
    \2\ Chip & PIN Security Now! Research TargetPoint Consulting, 
November 2014, http://www.chipandpinsecuritynow.org/about/
#sthash.c9uJZLis.dpuf

    October 1, 2015 marked the deadline when card networks 
effectively shifted liability for fraud onto any retailer 
without the ability to accept a chip card presented to her for 
transaction. This so-called ``deadline'' of October 1st was an 
arbitrary date that the duopolistic bank card brands dictated 
without seriously considering its effect on millions of small 
businesses. No one from my bank processor or existing supplier 
even contracted me about the need to add a new EMV device, let 
alone a deadline by which to do so. The most shocking part of 
this news was that the already sky high swipe fees will stay 
high and are rationalized as the cost of fraud prevention, even 
---------------------------------------------------------------------------
though the liability for fraud is now being shifted to me.

    The EMV transition is overwhelming and expensive for an 
independent, small retailer. I do not have an IT department; I 
personally handle IT--as well as payroll, benefits, taxes, 
buying, selling, and everything else a small business owner 
must do to say in business. I rely on service providers and 
vendors when it comes to IT needs through consultation over the 
telephone. Unfortunately, a phone conversation doesn't cut it 
when it cones to adopting complicated payment technology 
systems. Not only is the implementation process extremely 
complex, but also the cost is extremely high for merchants of 
all types (whether retailers or restaurants or taxicabs or 
doctors' offices). There are wide ranges of estimates for the 
cost attributed to upgrading terminals, but it is fair to say 
that for many businesses the costs for fully functional POS 
terminals that comply with EMV can easily exceed $1,000 to 
$2,000 once all of the training, system integration, and back 
office costs are included \3\. Retailers strongly support more 
secure payment options, and that is why we are collectively 
spending our share of billions of dollars to adopt the chip 
card technology even when it makes little sense in any serious 
customer protection or basic return-on-investment analysis.
---------------------------------------------------------------------------
    \3\ Chris McWilton, President, MasterCard North America. ``Credit 
Card Chip Gains Traction.'' Squawk on the Street. CNBC, New York. 
http://video.cnbc.com/gallery/?video=3000427478

    But that is why we also find it extremely frustrating that 
the card industry expects retailers and other businesses to 
upgrade when it will not allow the US to adopt the most secure 
form of this technology--chips with PINs. Take lost-and-stolen 
fraud, for example, which is the kind of fraud that chips with 
signature alone will do nothing to prevent. The card industry 
maintains that lost-and-stolen fraud is declining, but a more 
nuanced evaluation of the data shows that lost and stolen fraud 
has remained largely constant while counterfeit card fraud and 
card-not-present (``CNP'') fraud have risen.\4\ The use of PINs 
will mitigate fraud in all of these situations. But in the two 
specific situations where retailers bear the largest share of 
the risk--and where chips do virtually nothing--lost and stolen 
and CNP--PINs are not just a mitigating factor to fraud, they 
are the single most certain way of blocking it.
---------------------------------------------------------------------------
    \4\ Board of Governors of the Federal Reserve System, ``2011 
Interchange Fee Revenue, Covered Issuer Costs, and Covered Issuer and 
Merchant Fraud Losses Related to Debit Card Transactions,'' March 5, 
2013, p. 25, http://www.federalreserve.gov/paymentsystems/files/
debitfees<INF>--</INF>costs<INF>--</INF>2011.pdf

    In addition to the significant costs, there are significant 
delays in getting the POS hardware, installing the software, 
and, for many retailers, receiving the certification. There are 
tens of millions of POS terminals in our country, but small 
business updates are simply not a priority for the hardware 
manufacturers, the software service providers, nor the 
certification entities. I asked my payment technology rep when 
I could expect a new device if I ordered it this month and was 
---------------------------------------------------------------------------
told the equipment is on backorder.

    The delays for the equipment to arrive in my store takes 
into account the assumption that I even know which system to 
choose in the first place; there are countless options for 
retailers, all accompanied by their own fine print regarding 
fees and rules. EMV is all new to me, and banks and the 
networks are not contacting small businesses to help facilitate 
the transition in any way. What may seem like a ``deal'' for an 
EMV reader is in fact a solution that will come with increased 
costs over time. Customers use many different kinds of cards, 
all with different interchange rates, or swipe fees. Now, will 
there be more fees on my statement to accept EMV dips after I 
install new readers? How many more fees can there be?

    When I started in retailing, cash and checks were very 
common. Both of these forms of money cost me virtually nothing. 
$100 in cash nets me $100 in revenue. These days, however, the 
card networks and banks spend billions of dollars promoting the 
use of a more expensive form of money: cards. Now a $100 sale 
might net me $97 in revenue, because the card industry is 
charging me for their rewards programs. In fact, for most 
retailers, swipe fees are the second or third highest cost for 
merchants behind labor and rent.

    All of this would not have happened if two companies, 
acting on behalf of thousands of banks, hadn't been allowed to 
subject consumers and businesses to an expensive, fraud-prone 
payment system. From a small retailer's perspective, the whole 
approach to EMV is costly, incomplete, and further enhances the 
monopoly power of the card industry at my expense. If banks and 
card networks are going to make me spend a lot of money to 
reduce their fraud, they should at least offer a more secure 
solution and a savings to me and my customers.

    Small retailers are entirely at the mercy and whims of the 
big players. We have no say and no way to use the marketplace 
to make our objections heard and our concerns valued. Until the 
government can help effectuate a level playing field, we will 
continue to see the slow destruction of the local merchants 
that provide the glue for our communities. We need a secure 
payment technology solution that trends to processing on par 
with cash. Instead we get costly alternatives.

    Thank you for your interest in this issue, and I look 
forward to your questions.
                              TESTIMONY OF


                             JARED SCHEELER


                           MANAGING DIRECTOR


                    THE HUB CONVENIENCE STORES, INC.


                              ON BEHALF OF


             THE NATIONAL ASSOCIATION OF CONVENIENCE STORES


                                FOR THE


             HEARING OF THE HOUSE SMALL BUSINESS COMMITTEE


                            OCTOBER 21, 2015


  ``THE EMV DEADLINE AND WHAT IT MEANS FOR SMALL BUSINESSES: PART II''

    My name is Jared Scheeler. I am Managing Director for the 
Hub Convenience Stores, Inc. and I appreciate this opportunity 
to present my views regarding the implications of the EMV chip 
deadline for my small business.

    I am testifying today on behalf of the National Association 
of Convenience Stores (NACS). I serve on the NACS Board of 
Directors. NACS is an international trade association 
representing more than 2,200 retail and 1,800 supplier company 
members in the convenience and petroleum retailing industry. 
NACS member companies do business in nearly 50 countries 
worldwide, with the majority of members based in the United 
States. In 2014, the industry employed more than two million 
workers and generated $969.1 billion in total sales, 
representing approximately 4.0 percent of the United States' 
GDP--or one of every 25 dollars spent. The majority of the 
industry consists of small, independent operators. More than 70 
percent of the industry is composed of companies that operate 
ten stores or fewer, and 63 percent of them operate a single 
store.

    My company, Hub, has four retail outlets in North Dakota. 
Two locations are located in Dickinson, one in Mott, and one in 
New England, ND. On average, we employ 12 employees per store.

    As a small business, the transition to EMV has been a 
costly and burdensome undertaking. It does not appear that the 
card companies took into consideration the realities of 
operating a small business when they came up with their 
transition plans. In addition to the substantial time and money 
involved, the card companies have erected considerable 
obstacles that restrict my ability to reduce payment card fraud 
at my stores. Below I offer more detailed comments on the 
transition, its impact on my business, and the lost opportunity 
for substantially reducing fraudulent transactions.

    I. The cost of the EMV transition for my business.

    Thus far, it has cost approximately $44,500 per store--more 
than $134,500 for a chain our size--to make the point-of-sale 
operating systems and fuel dispensers in our three existing 
stores EMV compatible. At our existing site in Dickinson, which 
is Mobil-branded, we purchased 6 brand new fuel dispensers even 
though the existing dispensers had many years of useful life in 
them. The new dispensers were $17,000 each and the in-store 
point of sale card reader was $2,000. So, the upgrade cost us 
more than $100,000 at this site.

    Although we made these large investments, because we 
process our cards at our existing and new Dickinson sites 
through our fuel brand, ExxonMobil, we cannot accept EMV 
transactions. That is because ExxonMobil has not yet 
implemented EMV technology in their card processing network. 
They are not mandating an in-store terminal switch until 
October 1, 2016 and they are assuming any liability between now 
and that date.

    Once they implement the EMV technology, all ExxonMobil 
stores will require a software update. These updates are one 
part of an annual service package that cost $1,500 per store. 
For those who don't purchase the service package, it's about 
$1,000 for the software upgrade alone. Further, when the 
upgrade occurs, the store's cash registers and credit network 
will be unavailable for 6-8 hours while the software download 
occurs. We operate our stores 24 hours per day so this downtime 
will inconvenience our customers and lose us money. In fact, we 
estimate that during the time our stores will be ``offline'' 
for the software update, we will lost at least $10,200 in sales 
as well as labor and overtime costs per store.

    Unlike our store in Dickinson, the New England, ND store 
does not carry the brand of a major oil company. This store had 
older dispensers that still had many useful years in them as 
they don't pump a large amount of fuel. There are four 
dispensers at this store. Upgrading these older dispensers 
would have cost about $9,000 per dispenser. This is a problem 
for smaller and more rural locations. They often have older 
equipment that is more expensive to upgrade even though it may 
have more useful life. Rather than pay $9,000 to upgrade 20 
year old dispensers, we elected to transfer 4-year old 
dispensers from West Dakota Oil to this store, and we put in 
the new, compliant dispensers at West Dakota. The New England 
Store bought the 4-year old dispensers from West Dakota Oil, 
and paid $3,000 to upgrade each of those pumps plus $1,000 to 
transport each pump. This store also installed EMV card readers 
inside the store. In spite of these investments, the store 
cannot yet accept EMV transactions due to delays in the 
software programming necessary to take the transactions.

    As in New England, our store in Mott, ND is unbranded. We 
have two dispensers left over from the West Dakota Oil that 
will eventually be installed here. Like the New England store, 
these dispensers would cost $3,000 each to upgrade plus $1,000 
to transport each dispenser. We plan to wait to install these 
dispensers due to the cost to upgrade.

    These costs are staggering. The average convenience store 
makes $47,000 in profits in a year. That is pre-tax. Costs in 
the low six figures are too much for most to absorb. The 
average industry cost, thankfully, is lower than ours. Some of 
that difference is driven by the fact that we had some older 
equipment that needed to be replaced rather than upgraded. 
Again, that will hit smaller and more rural locations the 
hardest.

    Across the industry, the average cost per store is 
estimated to be about $26,000. With 152,000 stores across the 
United States, that means our industry will pay about $3.9 
billion to move to EMV.

    And the transition is costly not only in monetary terms, 
but also in terms of staff time and effort. As a small business 
owner, I do not have the back office or technical support of a 
large company. I have invested a tremendous amount of my own 
time to effectuate this transition, at the expense of tending 
to other business matters.

    My company began the EMV transition process in October 2014 
and it took about 16 weeks just to receive the necessary 
hardware. We have been at this a long time and we are still not 
done. While hardware has been a major expense, it is only the 
beginning. None of our stores have gotten their necessary 
software upgrades--and we can only proceed with the next steps 
in the EMV transition process after that happens. Then, we move 
onto what may be the biggest stumbling block, getting 
technicians to program the new equipment according to card 
company specifications and getting certification. Each of the 
major card brands--Visa, MasterCard, American Express and 
Discover--require separate certifications. And, we need to get 
separate certifications for credit, PIN debit, and signature 
debit. The certification process is lengthy and frequently 
leads to delays because the card networks have not provided the 
resources necessary given the large number of merchants that 
needed certifications by the same deadline. Getting programming 
and certification, however, is not the end of the EMV journey. 
Businesses still need to engage in pilot testing and have 
significant staff training in order to be able to start taking 
EMV transactions.

    Given all this, it is not surprising that my company and 
other small businesses are finding this transition difficult. 
The timeframes have been unrealistic and the card brands have 
not provided the support necessary to get this done in the 
timeframe they themselves set. Small businesses, not 
surprisingly, get pushed to the back of the line to get 
programming and certification services that are necessary to 
complete these projects. Wait times are long. And, even when 
those wait times are done, to avoid inconveniencing customers, 
we often have to work at odd hours to install and program new 
EMV terminals.

    Even after the EMV transition is complete at my stores, I 
have serious concerns about the ongoing expense and burden of 
the new system. The costs for getting those services from 
ExxonMobil, as noted above, are high, but at least I know what 
they are. The costs for my unbranded locations might be 
higher--I just don't know yet. In fact, according to industry 
estimates, on-going maintenance and upgrade expenses are 
expected to be upward of $2,240 per year, per store.

    II. Retailers like me already bear the brunt of an unsecure 
payments system

    As a small business owner, I am absolutely committed to 
improving payment card security. I have no problem making 
investments in effective fraud-prevention measures because 
retailers already pay the price for the unsecure payment card 
system. Unfortunately, as discussed in further detail below, 
this very costly transition to EMV will not reduce fraud as 
much as it could and should, and my business will continue to 
suffer from a deeply flawed system.

    Banks often claim that they are on the hook for fraud 
losses. They also claim that they provide a ``payment 
guarantee'' to their retailer customers. Frankly, I find these 
claims offensive because they are false. Let's be clear, I pay 
for fraud several times over:

    First, I pre-pay for fraud with exorbitant swipe fees, 
which the card networks have justified as necessary to cover 
the cost of fraud and fraud prevention. The Federal Reserve's 
rules on debit card swipe fees specifically provide for 
merchants like me to pay 5 basis points (0.05% of the 
transaction amount) on every transaction to cover banks' fraud 
losses. That amount is now higher than the full amount of debit 
card fraud suffered by the majority of banks covered by the 
Fed's rules. And, credit card swipe fees and debit swipe fees 
for banks not covered by the rules are much higher--ensuring 
merchants pay for more than 100% of fraud up front.

    Second, I pay for fraud in chargebacks. Despite banks' 
false claims of providing a ``payment guarantee'' to me and 
other retailers, when a fraudulent charge is made, my company 
is ``charged back'' for the amount of the fraudulent 
transaction about three out of four times. In fact, every year 
our company pays $600 per store in chargebacks.

    Third, if a merchant suffers a data breach, Visa and 
MasterCard rules require the merchant to pay for any increase 
in fraud for those breached accounts.

    Overall then, merchants pay for far more than 100% of the 
card fraud already. Now, for those who have not yet been able 
to complete the changeover to EMV, the numbers will be even 
higher. That makes no sense.

    III. EMV will not reduce fraud nearly as much as it should

    Disappointingly, the card companies have mandated an EMV 
transition that does not include a simple and very effective 
security measure that would substantially reduce fraud losses 
for everyone, including small business owners like me. Instead 
of migrating to chip-and-PIN technology in the U.S., the card 
companies have opted for a transition to chip-without-PIN. This 
is true in spite of the fact that the rest of the world has 
been moving to chip-and-PIN and that the data the card industry 
has used to justify the move in the United States relies on the 
use of chip-and-PIN, not chip-without-PIN.

    Chip-embedded cards are harder to counterfeit or copy than 
magnetic stripe cards, but counterfeit ``chip'' cards (that 
don't have a chip but still look like a chip card) can still be 
made, and when a person presents a card with a non-functioning 
chip, the card's magnetic stripe will be used or the card's 
number will be entered to complete the fraudulent transaction. 
Most of those transactions would, however, be blocked if a PIN 
was required.

    Chip technology without a PIN does not help reduce fraud in 
instances where a card is lost or stolen. Chip-without-PIN also 
does not to stop card fraud on the Internet. But Internet fraud 
is already a major proportion of fraud and will undoubtedly 
grow along with the EMV implementation. PIN use can help stop 
lost and stolen fraud as well as Internet fraud. The fact that 
the card industry is not issuing a PIN with every card is mind-
boggling and cuts against all of the experience we have gained 
with the technology overseas.

    This is particularly important in my business since 35 
percent of our sales occur at the pump where the store clerk 
does not see the card user or the card for sales. Over the past 
few years, motor fuel and other retailers with self-serve 
machines have paid fees to require zip code verification for 
these transactions. This service adds cost but saves us real 
dollars on fraud chargebacks. While generic zip code 
verification helps, PIN authentication--which is truly 
individualized for each consumer--works better. The benefits of 
PIN authentication are real: the Federal Reserve Board has 
confirmed that PIN authentication is six times more secure than 
signature authentication on debit transactions.\1\ Moreover, 
chip and PIN has been used to great success in Europe for over 
twenty years--a fact the card networks know well.\2\
---------------------------------------------------------------------------
    \1\ Federal Reserve Board, Debit Card Interchange Fees and Routing, 
77 Fed. Reg. at 46,261 (Aug. 3, 2010), available at http://www.gpo.gov/
fdsys/pkg/FR-2012-08-03/pdf/2012-18726.pdf.
    \2\ The Benefits of Chip and Pin for Merchants, available at http:/
/www.visa.ca/chip/merchants/benefitsofchippin/index.jsp (last visited 
Oct. 15, 2015) (describing how fraud related to lost and stolen payment 
cards in the UK decreased by more than half since chip and PIN was 
adopted there in 2004); see also Submission of Visa Worldwide, Visa AP 
(Australia), and MasterCard Asia/Pacific to the Australian Competition 
& Consumer Commission in support of Authorisations A91379 & A91380 
(Aug. 30, 2013), ``Security of Chip and PIN vs. Signature,'' pp. 1-2, 
available at http://registers.accc.gov.au/content/
index.phtml?itemID=1120516&display=submission (last visited Oct. 15, 
2015) (affirming ``[t]he Applicants' view is that chip and PIN is a 
significantly more secure form of [customer verification method] than 
signature'').

    Despite the clear security benefits of PIN, the card 
companies continue to adopt policies and rules that do not 
capitalize on those benefits. The EMV transition to chip-
without-PIN is just one example. Another example is the card 
companies' prohibition on merchants requiring PIN on debit card 
transactions. Even though the vast majority of debit cards are 
PIN-enabled, under the card companies' rules, I cannot choose 
to require customers to use a PIN to authenticate debit 
transactions. That is true in spite of the fact that when banks 
act as merchants--dispensing cash from ATMs--they are allowed 
to require PINs. And, of course, the banks always do require 
---------------------------------------------------------------------------
PINs.

    The card companies' actions and policies simply do not make 
sense if the real objective is to reduce fraud in the payment 
card system. Perhaps this should not be a surprise given that 
those networks do not shoulder any of the losses from 
fraudulent transactions. But as a small business owner paying 
for this costly EMV transition and substantial annual fraud 
costs, I am frustrated that I will not see the fraud relief 
that I and other retailers could easily get if the networks 
were making the type of genuine fraud-reduction effort that 
they have made around the world.

    IV. PIN authentication would also benefit our customers.

    I have heard the card companies and banks say time and time 
again that American consumers do not want PIN authentication. 
According to them, consumers will refuse or be unable to 
remember a 4-digit code. Given consumers' daily usage of PINs 
at bank ATMs and their use of similar passwords and codes to 
access smart phones, other devices and online accounts among 
many other things, this is demonstrably wrong. And, the card 
industry position is not supported by the data--a recent survey 
commissioned by the National Retail Federation found that 62% 
of consumers would prefer to use chip and PIN cards rather than 
chip-without-PIN cards.\3\
---------------------------------------------------------------------------
    \3\ See NRF Survey, available at https://nrf.com/sites/default/
files/Documents/Chip-and-Pin%20Consumer%20Survey%20One-Pager%2009-16-
2015%20REV.pdf.

    The card networks' position against PIN use in the United 
States appears to be disingenuous given that they have 
advertised in other countries that PIN transactions are more 
effective in preventing fraud than signature transactions and 
lead to ``increased checkout speed and improved customer 
service.'' \4\
---------------------------------------------------------------------------
    \4\ ``The Benefits of Chip and PIN for Merchants,'' available at 
http://www.visa.ca/chip/merchants/benefitsofchippin/index.jsp (last 
visited Oct. 18, 2015) (including a statement that ``using a PIN is 2 
to 4 seconds faster than obtaining a signature...''); see also ``The 
Importance of PIN,'' available at http://www.visa.ca/chip/cardholders/
importance-of-pin/index.jsp (last visited Oct. 18, 2015) (Visa 
advertises to consumers on its website in Canada (where chip and PIN 
has been implemented), in a section titled ``The Importance of PIN,'' 
that ``PIN transactions are easy.'')

    The consumer experience is a priority for any small 
business. So it is difficult for me to accept that the card 
networks and banks are promoting chip-without-PIN when chip-
and-PIN is widely proven to benefit consumers--and the numbers 
---------------------------------------------------------------------------
show that consumers want it.

                                  ***

    Unfortunately, there are many problems with the transition 
to EMV. This is not surprising given the fact that the card 
companies developed the transition timeline and requirements 
without input from merchants and consumers. Beyond the expense 
and unreasonable timeliness, the most frustrating aspect of the 
transition is that it will fall short of the fraud-prevention 
and consumer protection benefits it could easily achieve. 
Retailers want strong security--and we've been paying to try to 
get it--but transitioning to unproven chip-without-PIN 
technology threatens to have a significant negative impact on 
small businesses like mine. My company will continue to shell 
out money to pay for fraud several times over despite investing 
hundreds of thousands of dollars in the card networks' chosen 
technology. That is wrong and needs to change.
                          Testimony of

                         Mr. Art Potash

           Chief Executive Officer for Potash Markets

                        On Behalf of the

                    Food Marketing Institute

                           Before the

                 House Small Business Committee

                           Hearing on

 The EMV Deadline and What it Means for Small Businesses: Part 
                               II

                        October 21, 2015

                        Washington, D.C.

    Introduction:

    Good Morning Chairman Chabot, Ranking Member Velazquez and 
members of the Committee. My name is Art Potash and I am the 
CEO of Potash Markets in Chicago, Illinois. My family has owned 
and operated grocery stores in the Chicago area for 65 years. 
We currently employ 140 people. The Potash family tradition 
continues today of helping our customers fulfill their culinary 
passions and lead healthier and more fulfilling lives. We enjoy 
strong customer loyalty to our local grocery stores and strive 
to meet our customers' preferences and demands, from the food 
we sell to their peace of mind when using their credit cards to 
pay in our stores. I appreciate the opportunity to speak to you 
today about steps my company has taken to migrate to EMV and 
the challenges we have faced along the way. It is incredibly 
important that this committee, Congress and the American 
Consumer fully understands how EMV is being implemented here in 
the United States, what its potential benefits are, how it is 
different than it has been done globally, and the unique 
challenges small merchants are facing in meeting these 
standards.

    About the Food Marketing Institute:

    Food Marketing Institute proudly advocates on behalf of the 
food retail industry. FMI's U.S. members operate nearly 40,000 
retail food stores and 25,000 pharmacies, representing a 
combined annual sales volume of almost $770 billion. Through 
programs in public affairs, food safety, research, education 
and industry relations, FMI offers resources and provides 
valuable benefits to more than 1,225 food retail and wholesale 
member companies in the United States and around the world. FMI 
membership covers the spectrum of diverse venues where food is 
sold, including single owner grocery stores, large multi-store 
supermarket chains and mixed retail stores. For more 
information, visit www.fmi.org and for information regarding 
the FMI foundation, visit www.fmifoundation.org.

    Decision and Experience Migrating to EMV:

    As Visa's witness explained in the prior hearing, their 
company did not place an explicit mandate on merchants to 
migrate to EMV. Instead, Visa, MasterCard and the other card 
brands announced that any merchants who did not migrate to EMV 
would have additional fraud costs placed upon them. This would 
be in addition to fraud costs we already pay in interchange 
fees and chargebacks. As the other witnesses have and will 
testify today, each merchant then had to make the business 
decision of if the added cost of fraudulent cards would 
outweigh the cost of upgrading their point of sale systems to 
EMV.

    After studying the costs and benefits, including providing 
the most robust security for our customers' payment card data, 
we decided, like the majority of the grocery industry, to work 
to migrate our stores to EMV. As you can imagine, upgrading to 
EMV in my business is not as easy as buying a $49.99 Square 
reader. Our cash registers and credit card readers are more 
complex, providing for credit, debit, SNAP transactions, 
coupons and returns, among other features such as our customer 
loyalty card program, and ties into a network that requires 
substantial upgrades on both the front end and back end to be 
EMV-compliant as well as PCI-compliant.

    Additionally, like many others, I am in the business of 
selling groceries and I rely on third party vendors to actually 
perform these upgrades and interface with the other links in 
the chain. A small business such as mine does not have the 
resources to perform the programming to convert our system to 
EMV or the financial wherewithal to own our own switch. 
Instead, we rely on and pay our merchant acquirer, in our case 
Worldpay, to make this happen for us so we can focus on selling 
groceries.

    During the first hearing, the panel frequently referred to 
the $49.99 Square EMV solution, or a $100 off the shelf EMV 
point of sale reader. That characterization innately did not 
reflect the true needs and perspective of the merchant 
community. The true cost estimates in the United States for 
merchants to convert to EMV runs into the billions of dollars. 
Even the conservative estimate of $8 billion for merchants did 
not appear to consider back end costs as well as man hours and 
potential downtime while upgrading the system. This is a huge 
investment and cost on all merchants large and small.

    In May, we installed all new EMV point of sale devices in 
two of our three stores at a cost of $1,000 per lane. For the 
two stores, this means an upgrade cost of $8,000 just to 
conduct EMV-compliant payment transactions. This is a large 
investment to our small business, but we are willing to make it 
to protect our customers and hopefully get a reduction in fraud 
and our fraud expenses.

    While we now have EMV readers in our stores, we are not yet 
EMV-compliant and are now facing a holiday season exposed to 
greater fraud liability as we wait for our merchant acquirer to 
complete our transition., Currently, our acquirer has estimated 
they will be ready to upgrade our back end software by the end 
of November at best.

    The Cost of EMV and Card Acceptance for Merchants Moving 
Forward:

    This is an investment we made without much incentive from 
the card brands. Unlike the issuing banks who were enticed to 
issue chip cards with the promise of seeing their fraud costs 
reduce, merchants were pushed to do so under the threat of 
seeing their costs increase. This is particularly difficult for 
us to accept when we already pay the highest interchange fees 
in the modern world in the name of fraud costs. Visa, 
MasterCard and the other card brands have defended charging 
American merchants $71 billion a year in interchange fees as a 
way of offsetting the cost of fraud. If a portion of this fee 
is assessed because of fraud, those fees should be reduced if 
fraud is reduced. Unfortunately, as we heard in the first 
hearing, Visa has no plans to pass any savings along to 
merchants. We hope that will change and we hope that the 
Federal Reserve will see to it that this changes.

    The card networks have pushed merchants and encouraged 
issuers to migrate to EMV here in the United States under the 
guise of reducing fraud, but without promising to share any of 
those savings. As a small business I compete every day with 
other food retailers from the large box chains to other 
specialty markets, these fees restrict my ability to grow and 
compete and are a cost that I have absolutely no control over. 
The rule with Visa and MasterCard has basically always been 
``take it or leave it'' with regards to their operating rules 
and fee structure, placing merchants of all sizes, particularly 
small ones, at their mercy.

    In addition, consider the following historical trend. 
Retail food companies operate at razor thin margins due to the 
competitive nature of retail food industry. Our profit margin 
has never hit or exceeded 2% in the 60 years we have been 
collecting data. When food retailers have realized savings 
through efficiencies due to technological advancements and 
other cost saving measures the net profit for businesses in the 
retail food industry has remained at below 2% and savings have 
been passed along to the customer. This is further assurance 
that if retailers realize savings from reduced fraud those 
savings will also be passed along to the customer.

    There is a Need for Competition:

    As you can see from above the grocery industry is 
incredibly competitive, with even the largest company holding 
less than a 15% market share. We in the grocery industry all 
compete for customers every day with competitive prices, value 
and incentives to keep our customers and earn new ones. The 
credit card market is inherently different with the top two 
brands, Visa and MasterCard holding over 85% of the market. 
These brands do not compete for merchant acceptance. They 
compete for banks to issue their cards, and they compete by 
promising revenues from sources such as interchange fees they 
charge to merchants who accept their cards. There is no 
competition with the brands to garner merchant acceptance. So 
while the grocery customer has more opportunities to save money 
as my store competes with others for their business, retailers 
have virtually no options as customers of the credit card 
companies to reduce their costs.

    A Missed Opportunity to Truly Improve Card Security:

    I would be remiss if I failed to address the issue of PIN 
authentication. Every point of sale in our stores is PIN-
enabled. PIN is a proven safety measure that has been adopted 
globally, everywhere but here in the United States. 
Historically, the card companies have rolled out EMV as ``chip 
and PIN'' technology. So, not only are they verifying that the 
card is legitimate, they are also confirming that the person 
presenting the card is authorized to use it. Unfortunately, 
here in the United States, the card companies have rolled out 
an untested model of ``chip and choice'' as they call it. They 
left it up to the issuing banks to decide whether to issue 
PINs.

    I have been a bit mystified by the card brands' and banks' 
defense of not requiring PIN. One of the most interesting is 
the argument that the PIN is a static number and once 
compromised is useless. They instead argue for biometric 
authentication or continue to defend the useless signature 
method. This argument has a real problem. If your PIN is 
somehow compromised, or you forget it, you can go to your bank 
and reset it. Many current and former government employees will 
tell you, once your fingerprint or other biometric is 
compromised, there is no ``reset.'' You cannot go and change 
your thumbprint; it truly is static. So I think the ``PIN is 
static'' argument has a few holes in it.

    We all agree, technology and industry are evolving and 
improvements are made every day, but here is what we know 
today: PIN works today. It reduces fraud, period.

    I think it is important to respond to a question that was 
raised during the first hearing regarding PIN. A member asked 
if the card companies allowed merchants to require a PIN. The 
answer is no. We can prompt for PIN, but the current Visa and 
MasterCard operating rules that every merchant must adhere to 
or face fines or loss of the privilege of accepting their cards 
will not allow a merchant to require a PIN for a transaction 
that does not include cashback on a card, even if it is PIN-
enabled. This is a very important note to make. Banks require a 
PIN when the customer uses its ATM to withdraw money, but will 
not allow me the same privilege when a customer is making a 
purchase in my store.

    A Federal Data Security and Breach Notification Law:

    Another issue that was raised during the first hearing that 
deserves a merchant response is the bank and credit union 
witnesses support for H.R. 2205 the Data Security Act of 2015. 
To be clear, Potash Markets is committed to protecting our 
customers' payment card data. Gross mischaracterizations that 
merchants are not committed to protecting our customers' 
payment card data and that we are not held to any standards is 
simply not true. In addition to the various state laws 
merchants must comply with, the Federal Trade Commission has 
taken an active interest in holding merchants liable for not 
adequately protecting customer data with over fifty cases 
already pursued. Where we agree with the banks and credit 
unions, grocers and other merchant groups would like to replace 
the patchwork of state laws with one federal standard. Where we 
differ, is how that federal law should work. Unfortunately, 
H.R. 2205 in its current form takes a standard that was written 
specifically for the banks and puts it on any and all that 
accept credit and debit cards. Our desire is to work with the 
bill drafters to create a final product that will allow for the 
flexibility necessary that will allow for a small business such 
as me to take necessary steps to protect data, but tailor it 
specifically to my business needs, not unnecessarily opening me 
up to liability and heavy handed enforcement without merit. We 
all have the common goal of protecting customer data, but that 
should be addressed with fair and narrowly written legislation 
not punitive overly restrictive requirements.

    What Merchants Are Expecting Next in Electronic Payments:

    Another piece that was raised during the first hearing has 
taken on even more greater importance in the last week. The 
Visa witness shared a perspective on merchants having an option 
to ``turn on'' the near field communication (NFC) technology on 
the new EMV readers. She offered it as a feature and option but 
not required or mandated. Unfortunately, this past week we got 
a glimpse of what we should expect next. Last week, merchants 
in the United Kingdom were informed by their merchant acquirers 
that Visa and MasterCard will not mandate that they turn on and 
accept NFC transactions. This is something many American 
merchants have feared was coming next. By requiring that all 
merchants turn on and accept NFC transaction, Visa and 
MasterCard have moved to lock in their mobile payments 
solution, and effectively block other entrants into the market. 
They will ensure that every merchant accept their solution 
before any others can make it to market. By eliminating further 
competition in that space, Visa and MasterCard are moving to 
guarantee their dominance in the market continues. It is also 
important to note, it is not as easy as flipping a switch for a 
merchant to ``turn on'' their NFC function. This will require 
further certification, cost and investment.

    Conclusion:

    As you can see, there is a great deal more to EMV on the 
merchant side than buying a $100 piece of hardware off the 
shelf, or opting for Square's $49.99 solution. There is 
significantly more investment, dependence on vendors and long-
term repercussions to be considered. As mentioned earlier in my 
testimony, we are doing all of this on an untested model of 
chip and choice, versus the proven fraud reducing solution of 
chip and PIN technology. All of this affects merchants of all 
sizes, but as this committee knows very well, these challenges 
can be greatly magnified when it comes to small businesses.

    In conclusion, Potash Markets has made significant 
investments and is committed to migrate to EMV. Unfortunately, 
we find ourselves in the unenviable place of waiting for our 
providers to get us across the finish line, while we face a 
busy holiday season with the threat of higher fraud liability 
over our heads. I greatly appreciate the committee's interest 
in this very important issue, and look forward to answering 
your questions.
                    Testimony of Edmund Mierzwinski


                  U.S. PIRG Consumer Program Director


                            at a hearing on


  ``The EMV Deadline and What it Means for Small Businesses: Part II''


               Before the House Small Business Committee


                     Honorable Steve Chabot, Chair


                            21 October 2015

    Testimony of Edmund Mierzwinski, U.S. PIRG Consumer Program 
Director at a hearing on ``The EMV Deadline and What it Means 
for Small Businesses: Part II'', Before the House Small 
Business Committee, 21 October 2015

    Chair Chabot, Representative Velazquez, members of the 
committee, I appreciate the opportunity to testify before you 
on the important matter of consumer data security and the 
implications of the 1 October 2015 EMV liability change for 
small businesses and their consumer customers. Since 1989, I 
have worked on data privacy, among other financial issues, for 
the U.S. Public Interest Research Group. The state PIRGs are 
non-profit, non-partisan public interest advocacy organizations 
that take on powerful interests on behalf of their members.

    Summary:

    Chip and PIN is Safer than Chip and Signature: Since the 
1970s, the U.S. credit card, and later, also debit card, 
markets relied on magnetic stripe verification technology. To 
better deter ``card-present'' or in-person fraud, Canada and 
Europe switched to much stronger Chip and PIN technology over a 
decade ago. The U.S. is finally transitioning to Chip cards, 
although most banks are expected to offer the less robust Chip 
and Signature, rather than Chip and PIN, cards. Chips prevent 
information from your card from being transferred into merchant 
computers and prevent your card from being cloned. PINs prove 
you are not an imposter. Note that neither technology will 
deter online fraud, only in-person (card-present) fraud.

    To accelerate the belated conversion of the U.S. system at 
least to Chip, or EMV (Europay, Mastercard and Visa), systems, 
the Payment Card Industry (PCI) security standards body made a 
scheduled liability change on 1 October 2015. As of that date, 
merchants face greater fraud liability if they have not 
installed card readers that accept Chip cards. Banks that have 
not issued Chip cards retain greater liability. Gas stations 
have a longer implementation period.

    Banks Make More Money From Signature Transactions: While 
the banks have a polished narrative making other explanations 
as to ``Why Chip, not Chip and PIN?'', it really comes down to 
one factor: Visa and Mastercard have long functioned as a 
cartel with market power to drive traffic to their own payment 
networks--which are signature-enabled, not PIN enabled. They 
earn much higher merchant ``swipe'' or interchange fees. As 
merchant witnesses will explain, they already faced significant 
liability as well as are limited in their choices by card 
network rules. All consumers, including cash customers, pay 
more at the store and more at the pump due to these rules, 
which drive traffic to the higher-cost, yet riskier signature 
platforms, not PINs, quite simply because Visa and Mastercard 
profit more from transactions on those platforms. In either 
case, lower-income cash customers end up subsidizing more-
affluent rewards card customers because merchants bake the cost 
of swipe fees into their prices.

    We urge no preemptive federal action on data breaches: For 
several years Congress has considered national data breach 
notification legislation. Nearly every proposal I have seen, 
including numerous bills before this Congress, contains an 
onerous Trojan Horse provision. Even though most federal bills 
provide only extremely limited consumer protections, they 
broadly preempt state data security and consumer protection 
laws. Data breaches can result in numerous types of harms yet 
the bills do not recognize all the harms. The states have 
already implemented data breach notice laws that are working 
well.

    I will discuss each of these points in greater detail in 
the following discussion.

    Discussion:

    The transition to Chip cards means merchant data breaches 
will no longer act as such a treasure trove of account numbers 
and expiration dates for existing account fraud. The Chip 
technology prevents the transfer of the full card number and 
expiration date to the merchant, who will receive only a one-
time transaction code. The Chip cannot be cloned, meaning 
counterfeit cards usable in Chip ``dip'' readers cannot be 
created from the information available after a data breach. Of 
course, many cards will be backward-compatible for some time 
(still have a magnetic stripe to be ``swiped'') but these will 
be used at fewer and fewer card readers over time, limiting 
their value to bad guys going forward.

    However, we remain concerned that most U.S. banks and 
credit unions are expected to convert only to Chip cards, not 
fully to Chip and PIN cards,, which are safer for consumers and 
preferred by merchants, both of whom will still face the 
problems of stolen Chip cards in a ``Chip and Signature'' 
world. Chips prove your card is not a clone; PINs prove you are 
not an imposter.

    So far, we are only aware of one bank, upstate New York's 
First Niagara Bank, that's gone beyond Chip and Signature and 
is rolling out the more robust Chip and PIN.\1\ Positively, 
President Obama ordered last year that all U.S. issued credit 
cards and all U.S. agency card readers by Chip-and-PIN.\2\
---------------------------------------------------------------------------
    \1\ See Matt Glynn, ``First Niagara rolling out Chip-and-PIN 
cards'', Buffalo News, 30 September 2015 http://www.buffalonews.com/
business/first-niagara-rolling-out-Chip-and-pin-cards-20150930

    \2\ See Fred Williams, ``Obama puts federal might behind Chip-and-
PIN card security Social Security, other federal payment cards to 
switch in 2015,'' http://www.creditcards.com/credit-card-news/obama-
federal-backs-Chip-and-pin-1282.php

    When debit or credit card numbers only are stolen, such as 
in a breach, consumer protections are quite strong, although 
debit card customers may face cash flow problems while they 
wait for the bank to conduct a reinvestigation and replace 
money in their accounts. However, when debit cards themselves 
are lost, debit card customers face much greater liability, 
---------------------------------------------------------------------------
much more quickly.

    The December 2013 Target stores breach ultimately affected 
some 110 million customers and Target accountholders. The first 
tranche of some 40 million customers had their card numbers 
skimmed or ``scraped'' off the card reader software and made 
consumers vulnerable to existing account fraud, forcing 
numerous banks to replace cards.\3\ But the Target breach was 
only one in a long series of breaches, and an increase in card 
fraud generally, that had led to the proposal for the EMV card 
switch.
---------------------------------------------------------------------------
    \3\ After the thieves rooted around inside the Target mainframe for 
some time, they obtained phone numbers and email addresses for many 
more consumers with Target accounts. These data could then be used for 
social engineering or ``phishing'' attacks designed to obtain the 
additional information--Social Security Numbers and birth dates--that 
make it possible to commit ``new account identity theft.''

    Target and other breached merchants should be held 
accountable for their failure to comply with applicable 
security standards but that does not mean they are 100% 
responsible for breaches. Merchants, and their customers, had 
been forced by the card monopolies to use an unsafe payment 
card system that relies on obsolete magnetic stripe technology, 
buttressed by a constantly changing set of so-called PCI 
standards to compensate for the inherent flaws of the 
---------------------------------------------------------------------------
underlying, ancient stripe tech.

    Increasing consumer protections under the Electronic Funds 
Transfer Act (EFTA), which applies to debit cards, to the gold 
standard levels of the Truth in Lending Act, which applies to 
credit cards, should be a step taken by Congress. While EFTA 
provides for zero liability if a consumer notifies her bank 
within 60 days after her debit card number, but not her card, 
is stolen, she still faces the stigma of bouncing checks and 
cash flow problems while waiting for the bank to reinstate her 
funds, which is a problem for consumers living from paycheck to 
paycheck. But if a debit card is stolen, liability by law of up 
to $500 begins accrue if the bank is not notified within 2 
days. After 60 days, liability could be greater than $500 and 
could include funds taken from linked accounts. Conversely, the 
Truth In Lending Act grants credit card customers very strong 
protections in all cases, plus, no money is ever removed from 
your own bank account by credit card thieves.

    The card networks continued to use an obsolete 1970s 
magnetic stripe technology well into the 21st century because, 
as oligopolists, they wanted to extract greater rents from the 
system. When the technology was solely tied to credit cards, 
where consumers enjoyed strong fraud rights and other consumer 
protections by law, this may have been barely tolerable.

    But when the big banks and credit card networks asked 
consumers to expose their bank accounts to the unsafe 
signature-based payment systems, by piggybacking once safer 
PIN-only ATM cards onto the signature-based system after re-
branding them as ``debit'' cards, the omission became 
unacceptable. The vaunted ``zero-liability'' promises of the 
card networks and issuing banks are by contract, not law. Of 
course, the additional problem any debit card fraud victim 
faces is that she is missing money from her own account while 
the bank conducts an allowable reinvestigation for ten days or 
more, even if the bank eventually lives up to its promise.\4\ 
Further, the contractual promises I have seen contain asterisks 
and exceptions, such as for a consumer who files more than one 
dispute in a year. Congress should also provide debit and 
prepaid card customers with the stronger billing dispute rights 
and rights to dispute payment for products that do not arrive 
or do not work as promised that credit card users enjoy 
(through the Fair Credit Billing Act, a part of the Truth In 
Lending Act).\5\
---------------------------------------------------------------------------
    \4\ Compare some of the Truth In Lending Act's robust credit card 
protections by law to the Electronic Funds Transfer Act's weak debit 
card consumer rights at this FDIC website: http://www.fdic.gov/
consumers/consumer/news/cnfall09/
debit<INF>--</INF>vs<INF>--</INF>credit.html
    \5\ For a detailed discussion of these problems and recommended 
solutions, see Hillebrand, Gail (2008) ``Before the Grand Rethinking: 
Five Things to Do Today with Payments Law and Ten Principles to Guide 
New Payments Products and New Payments Law,'' Chicago-Kent Law Review: 
Vol. 83, Iss. 2, Article 12, available at http://
scholarship.kentlaw.iit.edu/cklawreview/vol83/iss2/12

    Further, the card networks' failure to upgrade, let alone 
enforce, their PCI security standards, despite the massive 
revenue stream provided by consumers and merchants through 
swipe, or interchange, fees, is yet another outrage by the 
---------------------------------------------------------------------------
banks and card networks.

    Merchants that accept credit and debit cards are already 
subject to a set of fees and a set of rules. The full ``swipe 
fee'' includes a small fee paid to the network, a small fee 
paid to the merchant's bank and a very large interchange fee 
paid to the consumer's bank. Merchants also pay third-party 
processing fees. A portion of the interchange fee is already 
allocated to fraud prevention. Merchant swipe fees (deducted 
from the payments they receive from banks) could range from 
about 1% for a ``classic'' debit card to 3.5% or more for an 
airline rewards credit card. (The fee schedules are complex and 
the fee often includes a flat fee plus a percentage of the cost 
of the transaction. Different merchant classes pay different 
fees.)

    Rules include both the security compliance standards set by 
the Payment Card Industry (PCI) process that led to this 
liability shift as well as to additional complex network 
rules.\6\

    \6\ These network rules set by Visa and Mastercard, as well as by 
Discover and American Express, have been the subject of a variety of 
public and private antitrust lawsuits over many years but are not 
directly the subject of this testimony.

    Incredibly, the Federal Reserve Board's rule interpreting 
the Durbin amendment to the 2010 Dodd-Frank Wall Street Reform 
and Consumer Protection Act, which limited swipe fees on the 
debit cards of the biggest banks, also provided for additional 
fraud revenue to the banks in several ways. Even though banks 
and card networks have routinely passed along virtually all 
costs of fraud to merchants in the form of chargebacks, the 
Federal Reserve rule interpreting the Durbin amendment allows 
for much more revenue. So, not only are banks and card networks 
compensated with general revenue from the ever-increasing swipe 
fees, but the Fed allows them numerous additional specific 
bites of the apple for fraud-related fees.\7\
---------------------------------------------------------------------------
    \7\ See 77 Fed. Reg. page 46264 (August 3, 2012), available at 
http://www.gpo.gov/fdsys/pkg/FR-2012-08-03/pdf/2012-18726.pdf.

    Under the Fed's Durbin rules the amount of this additional 
compensation is as follows: banks can also get 5 basis points 
per transaction for fraud costs, 1.2 cents per transaction for 
transaction monitoring, and 1 cent per transaction for the 
fraud prevention adjustment. Again, this is in addition to 
merchants already paying chargebacks for fraud as well as PCI 
violation fines, plus litigation damages, and, now, possible 
additional direct costs of fraud for failing to install Chip 
---------------------------------------------------------------------------
readers.

    Unfortunately, without PINs, the EMV transition will not 
provide merchants and consumers the level of protection against 
fraud that they both seek.

    Further, while most news discussion and bank political 
advertising related to the Durbin amendment focuses on bank 
complaints about both the reduced revenue stream and the 
merchants' purported failure to pass along savings, it is 
important to understand that other provisions of the amendment 
were also important. For example, the Durbin amendment makes it 
easier for merchants to ``signal'' to consumers that certain 
payment methods, including the use of alternative networks, 
cost them less and are preferred. Of course, the least-costly 
networks are generally PIN-based, but most consumers, thanks to 
banks only moving partway, will not have PIN cards.

    We are only aware of one bank, upstate New York's First 
Niagara Bank, that's gone beyond Chip and Signature and is 
rolling out the more robust Chip and PIN.\8\ Positively, 
President Obama ordered last year that all U.S. issued credit 
cards and all U.S. agency card readers be Chip-and-PIN.\9\
---------------------------------------------------------------------------
    \8\ See Matt Glynn, ``First Niagara rolling out Chip-and-PIN 
cards'', Buffalo News, 30 September 2015 http://www.buffalonews.com/
business/first-niagara-rolling-out-Chip-and-pin-cards-20150930

    \9\ See Fred Williams, ``Obama puts federal might behind Chip-and-
PIN card security Social Security, other federal payment cards to 
switch in 2015,'' http://www.creditcards.com/credit-card-news/obama-
federal-backs-Chip-and-pin-1282.php

    This month, the FBI offered but then immediately ``walked 
back'' a recommendation to consumers and merchants that Chip 
and PIN is better than Chip and Signature. As Senator Durbin 
---------------------------------------------------------------------------
asked in a letter to FBI director Comey last week:

          ``The revisions to the FBI advisory raise significant 
        questions about whether current EMV security technology 
        is adequately protecting consumers and whether the FBI 
        is taking appropriate steps to warn against and deter 
        payment card fraud involving lost or stolen cards,'' 
        said Durbin. ``Did representatives of the American 
        Bankers Association contact the FBI between the 
        issuance of the October 8 advisory and the release of 
        the revised advisory? If so, did the American Bankers 
        Association request that the advisory's recommendations 
        for consumers and merchants to use PINs be removed? 
        \10\''

    \10\ See ``Durbin Calls for FBI to Explain Walkback of Consumer 
Protection Advisory Regarding Security Features on Credit and Debit 
Cards,'' 15 October 2015, http://www.durbin.senate.gov/newsroom/press-
releases/durbin-calls-for-fbi-to-explain-walkback-of-consumer-
protection-advisory-regarding-security-features-on-credit-and-debit-
cards

    The committee should join Senator Durbin in asking Director 
---------------------------------------------------------------------------
Comey these questions.

    We believe that if Congress act in the payment card 
security, it should take steps, as the President did, to 
encourage all users to use the highest possible existing 
standard. Congress should also take steps to ensure that 
additional technological improvements and security innovations 
are not blocked by actions or rules of the existing players. In 
general, this means proposing or encouraging a technology-
neutral performance standard.

    If Congress does choose to impose higher standards, then it 
must also impose them equally on all players. For example, 
current legislative proposals may unwisely impose softer 
regimes on financial institutions subject to the weaker Gramm-
Leach-Bliley rules than to merchants and other non-financial 
institutions.

    Further, as most observers are aware, Chip technology will 
only prevent the use of cloned cards in card-present (Point-of-
Sale) transactions. It is an improvement over obsolete magnetic 
stripe technology in that regard, yet it will have no impact on 
online transactions, where fraud volume is much greater already 
than in point-of-sale transactions. Experiments, such as with 
``virtual card numbers'' for one-time use, are being carried 
out online. It would be worthwhile for the committee to inquire 
of the industry and the regulators how well those experiments 
are proceeding and whether requiring the use of virtual card 
numbers in all online debit and credit transactions should be 
considered a best practice.

    Congress should not enact any federal breach law that 
preempts state breach laws or, especially, preempts other state 
data security rights or protections: In 2003, when Congress, in 
the FACT Act, amended the Fair Credit Reporting Act, it 
specifically did not preempt the right of the states to enact 
stronger data security and identity theft protections.\11\ We 
argued that since Congress hadn't solved all the problems, it 
shouldn't prevent the states from doing so.
---------------------------------------------------------------------------
    \11\ See ``conduct required'' language in Section 711 of the Fair 
and Accurate Credit Transactions Act of 2003, Public Law 108-159. Also 
see Hillebrand, Gail, ``After the FACT Act: What States Can Still Do to 
Prevent Identity Theft,'' Consumers Union, 13 January 2004, available 
at http://consumersunion.org/research/after-the-fact-act-what-states-
can-still-do-to-prevent-identity-theft/

    From 2004-today, 46 states enacted security breach 
notification laws and 49 state enacted security freeze laws. 
Many of these laws were based on the CLEAN Credit and Identity 
Theft Protection Model State Law developed by Consumers Union 
---------------------------------------------------------------------------
and U.S. PIRG.\12\

    \12\ See http://consumersunion.org/wp-content/uploads/2013/02/
model.pdf

    A security freeze, not credit monitoring, is the best way 
to prevent identity theft. If a consumer places a security 
freeze on her credit reports, a criminal can apply for credit 
in her name, but the new potential creditor cannot access your 
``frozen'' credit report and will reject the application. The 
freeze is not for everyone, since you must unfreeze your report 
on a specific or general basis whenever you re-enter the credit 
marketplace, but it is only way to protect your credit report 
---------------------------------------------------------------------------
from unauthorized access.\13\

    \13\ http://defendyourdollars.org/document/guide-to-security-
freeze-protection

    The other problem with enacting a preemptive federal breach 
notification law is that industry lobbyists will seek language 
that not only preempts breach notification laws but also 
prevents states from enacting any future security laws, despite 
---------------------------------------------------------------------------
the 2003 FACT Act example above.

    Simply as an example, S. 961 (Carper) includes sweeping 
preemption language that is unacceptable to consumer and 
privacy groups and likely also to most state attorneys general:

          SEC. 6. Relation to State law.

          No requirement or prohibition may be imposed under 
        the laws of any State with respect to the 
        responsibilities of any person to--

          (1) protect the security of information relating to 
        consumers that is maintained, communicated, or 
        otherwise handled by, or on behalf of, the person;

          (2) safeguard information relating to consumers 
        from--

                  (A) unauthorized access; and

                  (B) unauthorized acquisition;

          (3) investigate or provide notice of the unauthorized 
        acquisition of, or access to, information relating to 
        consumers, or the potential misuse of the information, 
        for fraudulent, illegal, or other purposes; or

          (4) mitigate any potential or actual loss or harm 
        resulting from the unauthorized acquisition of, or 
        access to, information relating to consumers.

    Such broad preemption will prevent sates from acting as 
first responders to emerging privacy threats. Congress sh9ould 
not preempt the states. In fact, Congress should think twice 
about whether a federal breach law that is weaker than the best 
state laws is needed at all.

    I would also note that most federal breach proposals define 
harm very narrowly to financial harm. As we have seen with the 
latest breaches of health insurance companies, tax preparation 
firms and the IRS itself, and now even the U.S. OPM, harms from 
data breaches have gone far beyond existing account fraud or 
even new account identity theft to include theft of medical 
services, theft of tax refunds and the reputational and 
physical threat harms that could result from the OPM breach of 
security clearance files, including fingerprints.\14\ Just a 
few weeks ago, a national consumer reporting agency, Experian, 
was even breached, although it states that its credit reports 
on 200 million Americans were not affected.\15\
---------------------------------------------------------------------------
    \14\ I discussed the issue of broad harms and narrow protections in 
detail here in my blog (24 June 2015): http://uspirg.org/blogs/eds-
blog/usp/more-i-hear-about-opm-data-breach-less-i-know-except-its-bad

    \15\ News release, ``PIRG, Others Ask CFPB, FTC to Investigate 
Experian/T-Mobile Data Breach,'' 8 October 2015, http://www.uspirg.org/
news/usp/pirgs-others-ask-cfpb-ftc-investigate-experiant-mobile-data-
breach

    In addition, most federal proposals have a weak notice 
requirement with a risk ``trigger'' based on a narrow 
definition of harm. The better state breach laws, starting with 
California's, require breach notification if information is 
presumed to have been ``acquired.'' The weaker laws allow the 
company that failed to protect the consumer's information in 
the first place to decide whether to tell them, based on its 
estimate of the likelihood of identity theft or other harm, but 
---------------------------------------------------------------------------
no other harms.

    Only an acquisition standard will force data collectors to 
protect the financial information of their trusted customers, 
accountholders or, as Target calls them, ``guests,'' well 
enough to avoid the costs, including to reputation, of a 
breach.

    Congress Should Allow For Private Enforcement and Broad 
State and Local Enforcement of Any Law It Passes: The 
marketplace only works when we have strong federal laws and 
strong enforcement of those laws, buttressed by state and local 
and private enforcement.

    Many of the data breach bills I have seen specifically 
state no private right of action is created. Such clauses 
should be eliminated and it should also be made clear that the 
bills have no effect on any state private rights of action. 
Further, no bill should include language reducing the scope of 
state Attorney General or other state-level public official 
enforcement. Further, any federal law should not restrict state 
enforcement only to state Attorneys General. For example, in 
California not only the state Attorney General but also county 
District Attorney and even city attorneys of large cities can 
bring unfair practices cases.

    Although we currently have a diamond age of federal 
enforcement, with strong but fair enforcement agencies 
including the CFPB, OCC and FDIC, that may not always be the 
case. By preserving state remedies and the authority of state 
and local enforcers, you can better protect your constituents 
from the harms of fraud and identity theft.

    Review Title V of the Gramm-Leach-Bliley Act and its Data 
Security Requirements:

    The 1999 Gramm-Leach-Bliley Act imposed data security 
responsibilities on regulated financial institutions, including 
banks. The requirements include breach notification in certain 
circumstances.\16\ Congress should ask the regulators for 
information on their enforcement of its requirements and should 
determine whether additional legislation is needed. The 
committee should also recognize that compliance with GLBA 
should not constitute constructive compliance with any 
additional security duties imposed on other players in the card 
network system as that could lead to a system where those other 
non-financial-institution players (merchants) are treated 
unfairly.
---------------------------------------------------------------------------
    \16\ See the Federal Financial Institutions Examination Council's 
``Final Guidance on Response Programs: Guidance on Response Programs 
for Unauthorized Access to Customer Information and Customer Notice,'' 
2005, available at http://www.fdic.gov/news/news/financial/2005/
fil2705.html

---------------------------------------------------------------------------
    Conclusion:

    In conclusion, consumers will benefit from lower fraud 
risks by the transition to a Chip card regime but the banking 
industry deserves to be called out for imposing higher Chip 
reader costs on merchants without also further reducing their 
fraud risk by rolling out Chip and PIN instead of Chip and 
signature cards. The liability shift is a big stick, added to 
numerous other ``fee and rule sticks'' that the banks already 
use to extract fees and maintain market power; but the carrot 
of reducing fraud even further by going with ``best available'' 
technology rather than ``best for banks'' technology would have 
been a better solution.

    I would also note two other impacts on consumers from the 
transition. First, as the FTC has noted, the rollout is 
confusing and scam artists are taking advantage of the October 
1 date to create new scam pitches to consumers.\17\ Another 
problem I have heard of, although not confirmed, is one that 
may be faced by consumers traveling in Europe who encounter 
unattended fare machines that may require a PIN at all times.

    \17\ See FTC blog of 19 October 2015, ``Scam du jour: Chip card 
scams,'' http://www.consumer.ftc.gov/blog/scam-du-jour-Chip-card-scams
---------------------------------------------------------------------------
    Thank you for the opportunity to provide the Committee with 
our views. We are happy to provide additional information to 
Members or staff.
                        Statement for the Record


                        On behalf of the

                      American Bankers Association


                      Consumer Bankers Association


                   Credit Union National Association


                     Financial Services Roundtable


                Independent Community Bankers of America


             National Association of Federal Credit Unions


                           before the

                        Small Business Committee


                 United States House of Representatives


    Chairman Chabot, Ranking Member Velazquez, and members of 
the Committee, the ABA, CBA, CUNA, ICBA and NAFCU on behalf of 
the 14,000 banks and credit unions of all sizes that are taking 
on criminal hackers by issuing payment cards with highly secure 
``EMV'' microchips, we appreciate the Committee's interest in 
the transition to the next generation in payments security and 
respectfully request that this statement be made part of the 
record for today's hearing.

    An estimated 575 million so-called ``chip'' cards will be 
issued by year-end, millions of merchants will be on the road 
to implementation, and the U.S. marketplace will be 
significantly safer at the cash register for our nation's 
consumers. EMV (or ``chip'') technology makes stolen card 
numbers useless to thieves if they try to create counterfeit 
cards, and address the lion's share of today's fraud for in-
store (or ``card-present'') transactions. The rollout of chip 
or ``EMV'' technology demonstrates how the financial services 
and retail industries can and must work together to better 
protect consumers.

    While the Committee's October 7th hearing was helpful in 
highlighting some of the issues around EMV, we want to share 
additional information based on some of the questions raised at 
the hearing to assist you in preparation for today's hearing.

    First, the move to chip technology has been underway for 
quite some time. The transition to EMV began in 2011, and card 
networks, banks and credit unions, merchant bank processors, 
and the merchants themselves have been involved in implementing 
the transition since that time. Indeed, many merchant banks 
have worked with small businesses to identify ways to upgrade 
payment terminals at low- or no-cost. Merchants are our 
customers--we want them to succeed.

    Second, consumers will benefit greatly from this 
transition. After the major data breaches at big box stores, 
like Target and Home Depot, tens of millions of account numbers 
were posted online, which could have easily been used to create 
counterfeit cards. In response, banks and credit unions 
reissued millions of cards at an unprecedented pace in order to 
protect consumers from fraud. Going forward, chip cards greatly 
reduce the fraud risks stemming from such breaches by 
generating a one-time code for each transaction, eliminating 
the possibility that those chip cards can be counterfeited and 
used at another store. Once chip cards fully replace the 
magstripe--the U.S. has already issued the most chip cards of 
any country in the world--and merchants turn on their chip card 
readers, counterfeit cards will become a lot harder to create.

    Third, merchants are fully empowered to protect themselves 
from any increased liability as part of this transition. Once 
merchants install chip card readers and turn them on, liability 
returns to the financial institution. Chip card readers are 
available for very reasonable prices. Depending upon the vendor 
and type of upgrade needed, it can be zero or as little as $49, 
which makes it easy for merchants of all sizes to protect their 
customers at minimal cost. Moreover, liability shifts only for 
accounts that are chip-enabled--so if the card issuer has not 
done its part, it bears the risk. This is a private sector 
incentive to encourage adoption and better consumer 
protections.

    Fourth, the ``PIN argument'' is a smokescreen used by 
retail trade groups to deflect attention from the high profile 
retail data breaches at big box stores over the past few years 
and their underlying causes. Rather than coming together to 
improve internal data security practices, the retail trades are 
fixating on a PIN technology that fights a small and declining 
share of today's fraud and which would have been meaningless in 
breaches like those at Target and Home Depot. The reality is 
that if a merchant is EMV enabled and has their card readers 
turned on, they have the same protections whether PIN is used 
or not. Instead of fighting, we should embrace ideals like H.R. 
2205, the Data Security Act of 2015, introduced by 
Representatives Neugebauer (R-TX) and Carney (D-DE), to apply 
meaningful and consistent data protection for consumers 
nationwide.

    Finally, an attempt is being made to interject one of the 
most controversial parts of the Dodd-Frank Act--the price 
controls of the Durbin Amendment--into the chip card 
discussion. The fact is that banks and credit unions annually 
spend billions on innovation in payment security in order to 
stay ahead of the thieves. We are pioneering cutting-edge 
solutions--like the ``tokenization'' technologies used in Apple 
Pay and Samsung Pay, end-to-end encryption, and biometric 
authenticators--to protect transactions wherever they take 
place. That forward-looking approach to ``tomorrow's threats'' 
today should be the focus of our collective discussions.

    Ultimately, the only way to protect our data is to stay 
ahead of the ever-changing criminal element through joint 
efforts. The security of our payments system impacts all of us 
and the payments system will only be secured if everybody--
banks, credit unions, payment networks, retailers and 
consumers--work together to fight a common enemy.

    Sincerely,

    American Bankers Association
    Consumer Bankers Association
    Credit Union National Association
    Financial Services Roundtable
    Independent Community Bankers of America
    National Association of Federal Credit Unions
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
